No. _______
IN THE

Supreme Court of the United States
_________
SPORTSWEAR, INC., D/B/A PREP SPORTSWEAR,
Petitioner,
v.
SAVANNAH COLLEGE OF ART AND DESIGN, INC.,
Respondent.
________
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Eleventh Circuit
________
PETITION FOR A WRIT OF CERTIORARI
________
LESLIE C. VANDER GRIEND
JOSHUA D. HARMS
STOKES LAWRENCE, P.S.
1420 Fifth Avenue
Suite 3000
Seattle, WA 98101
lcv@stokeslaw.com
jdh@stokeslaw.com

ADAM G. UNIKOWSKY
Counsel of Record
JENNER & BLOCK LLP
1099 New York Ave., NW,
Suite 900
Washington, DC 20001
(202) 639-6000
aunikowsky@jenner.com

i
QUESTIONS PRESENTED
1. Does the scope of a federally-registered service
mark extend to unrelated goods bearing that
service mark?
2. Does the defendant’s copying of a mark, without
proof of consumer confusion as to the source of
the parties’ goods or services, establish
trademark
infringement
merely
because
consumers recognize the mark?

ii
LIST OF PROCEEDINGS
Sportswear, Inc., d/b/a PrepSportswear v. Savannah
College of Art and Design, Inc., No. 17-1316 (U.S.)
Savannah College of Art and Design, Inc. v.
Sportswear, Inc., d/b/a PrepSportswear, No. 19-11258
(11th Cir.)
Savannah College of Art and Design, Inc. v.
Sportswear, Inc., d/b/a PrepSportswear, No. 15-13830
(11th Cir.)
Savannah College of Art and Design, Inc. v.
Sportswear, Inc., d/b/a PrepSportswear, No. 1:14-cv02288-TWT (N.D. Ga.)

iii
CORPORATE DISCLOSURE STATEMENT
Petitioner Sportswear, Inc., d/b/a Prep Sportswear,
has no outstanding shares or debt securities in the
hands of the public, and it does not have a parent
company. No publicly held company has a 10% or
greater ownership interest in Petitioner.

iv
TABLE OF CONTENTS
QUESTIONS PRESENTED ........................................... i
LIST OF PROCEEDINGS .............................................. ii
CORPORATE DISCLOSURE STATEMENT ........... iii
TABLE OF AUTHORITIES ....................................... viii
OPINIONS BELOW ......................................................... 1
JURISDICTION ................................................................ 1
STATUTORY PROVISIONS INVOLVED ................. 1
INTRODUCTION ............................................................. 1
STATEMENT OF THE CASE ....................................... 5
A.

Statutory Background ............................... 5

B.

First Eleventh Circuit Decision ............... 8

C.

Second Eleventh Circuit Decision ......... 13

REASONS FOR GRANTING THE WRIT ................ 14
I.

THE ELEVENTH CIRCUIT’S SCOPEOF-THE-MARK
HOLDING
WARRANTS REVIEW. .................................... 15
A.

The Eleventh Circuit’s Decision is
Wrong. ........................................................ 15

B.

The Eleventh Circuit’s decision
conflicts with decisions from other
circuits. ....................................................... 17

v

C.

II.

III.

1.

In the Third Circuit, the
Scope of Rights Based on a
Federal
Registration
Extends Only to Goods or
Services Identified in the
Registration................................... 17

2.

In the Second, Fourth, and
Ninth Circuits, the Scope of
Rights Based on a Federal
Registration Extends to the
Goods or Services Identified
in the Registration and
“Related”
Goods
or
Services. ......................................... 19

Because there is now a final
judgment, there are no vehicle
problems..................................................... 24

THE
ELEVENTH
CIRCUIT’S
LIKELIHOOD-OF-CONFUSION
HOLDING WARRANTS REVIEW................ 27
A.

The Eleventh Circuit’s Decision is
Wrong. ........................................................ 27

B.

The Ninth and Tenth Circuits
Have Expressly Rejected Boston
Hockey. ...................................................... 32

THE
ELEVENTH
CIRCUIT’S
DECISION CONFLICTS WITH THE
FEDERAL
CIRCUIT’S
REGISTRATION DECISIONS. ...................... 34

CONCLUSION ................................................................ 38

vi
Appendix A
Savannah College of Art & Design, Inc. v.
Sportswear, Inc., 983 F.3d 1273 (11th
Cir. 2020) ....................................................................... 1a
Appendix B
Savannah College of Art and Design, Inc. v.
Sportswear, Inc., 872 F.3d 1256 (11th
Cir. 2017) ..................................................................... 28a
Appendix C
Savannah College of Art and Design, Inc. v.
Sportswear, Inc., Civ. A. No. 1:14–CV–2288–
TWT, 2019 WL 11542685 (N.D. Ga. Mar.
1, 2019) ......................................................................... 49a
Appendix D
Savannah College of Art and Design, Inc. v.
Sportswear, Inc., Civ. A. No. 1:14–CV–2288–
TWT, 2015 WL 4626911 (N.D. Ga. Aug.
3, 2015) ......................................................................... 80a
Appendix E
Judgment
and
Permanent
Injunction,
Savannah College of Art and Design, Inc. v.
Sportswear, Inc., Civ. A. No. 1:14–CV–2288–
TWT (N.D. Ga. Dec. 7, 2020) .................................... 87a

vii
Appendix F
Order denying panel rehearing and rehearing
en banc, Savannah College of Art and Design,
Inc. v. Sportswear, Inc., No. 19-11258-JJ (11th
Cir. Feb. 17, 2021) ...................................................... 91a
Appendix G
Order denying panel rehearing and rehearing
en banc, Savannah College of Art and Design,
Inc. v. Sportswear, Inc., No. 15-13830 (11th
Cir. Jan. 23, 2018) ....................................................... 93a
Appendix H
Statutory Provisions Involved ................................ 96a

viii
TABLE OF AUTHORITIES
CASES
American Steel Foundries v. Robertson,
269 U.S. 372 (1926) .................................................... 7
Applied Information Services Corp. v.
eBay, Inc., 511 F.3d 966 (9th Cir. 2007) ......... 21, 22
B&B Hardware, Inc. v. Hargis Industries,
Inc., 575 U.S. 138 (2015) ................................. 7, 8, 16
Boston Professional Hockey Ass’n v.
Dallas Cap & Emblem Manufacturing,
Inc., 510 F.2d 1004 (5th Cir. 1975) .................... 3, 28
Chandon Champagne Corp. v. San Marino
Wine Corp., 335 F.2d 531 (2d Cir. 1964) .............. 20
Dastar Corp. v. Twentieth Century Fox
Film Corp., 539 U.S. 23 (2003) .............................. 30
Hydro-Dynamics, Inc. v. George Putnam
& Co., 811 F.2d 1470 (Fed. Cir. 1987) .................. 35
International Order of Job’s Daughters v.
Lindeburg & Co., 633 F.2d 912 (9th Cir.
1980) .................................................................... 32, 33
KP Permanent Make-Up, Inc. v. Lasting
Impression I, Inc., 543 U.S. 111 (2004)................ 30
Levi Strauss & Co. v. Blue Bell, Inc., 778
F.2d 1352 (9th Cir. 1985) ...................................21-22
M.Z. Berger & Co. v. Swatch AG, 787 F.3d
1368 (Fed. Cir. 2015)............................................... 34

ix
Moseley v. V Secret Catalogue, Inc., 537
U.S. 418 (2003) ......................................................... 30
Natural Footwear Ltd. v. Hart, Schaffner
& Marx, 760 F.2d 1383 (3d Cir. 1985) ...... 17, 18, 19
Northern Insurance Co. of New York v.
Chatham County, 547 U.S. 189 (2006) ................... 3
Synergistic International, LLC v. Korman,
470 F.3d 162 (4th Cir. 2006) ............................. 22, 23
Two Pesos, Inc. v. Taco Cabana, Inc., 505
U.S. 763 (1992) ............................................... 7, 36, 37
United Drug Co. v. Theodore Rectanus Co.,
248 U.S. 90 (1918) .................................................... 12
United States v. Giles, 213 F.3d 1247 (10th
Cir. 2000) ............................................................ 32, 33
Virginia Military Institute v. United
States, 508 U.S. 946 (1993) ..................................... 24
Woodke v. Dahm, 70 F.3d 983 (8th Cir.
1995) .......................................................................... 37
STATUTES
15 U.S.C. § 1052(d)........................................................ 35
15 U.S.C. § 1114(1)(a) ..................................................... 7
15 U.S.C. § 1115(a) ................................................ 2, 6, 16
15 U.S.C. § 1116 ............................................................ 13
15 U.S.C. § 1125(a) .......................................................... 7
15 U.S.C. § 1127 ........................................................ 6, 34

x
OTHER A UTHORITIES
Stacey L. Dogan & Mark A. Lemley, The
Merchandising Right: Fragile Theory or
Fait Accompli?, 54 Emory L.J. 461
(2005) .......................................................................... 31
Glynn S. Lunney, Jr., Trademark’s
Judicial De-Evolution: Why Courts Get
Trademark Cases Wrong Repeatedly,
106 Calif. L. Rev. 1195 (2018) ................................. 31
J.

Thomas McCarthy, McCarthy on
Trademarks and Unfair Competition,
Westlaw (5th ed. updated Mar. 2021) ............. 31, 32

1
Sportswear, Inc., d/b/a Prep Sportswear, petitions
for a writ of certiorari to review the judgment of the
United States Court of Appeals for the Eleventh
Circuit.
OPINIONS BELOW
The Eleventh Circuit’s decisions are reported at 983
F.3d 1273 (Pet. App. 1a-27a) and 872 F.3d 1256 (Pet.
App. 28a-48a). The district court’s decisions (Pet. App.
49a-79a, 80a-86a, and 87a-90a) are unreported. The
Eleventh Circuit’s orders denying rehearing and
rehearing en banc (Pet. App. 91a-92a and 93a-95a) are
unreported.
JURISDICTION
The judgment of the Eleventh Circuit was entered
on December 22, 2020. The Eleventh Circuit’s order
denying rehearing and rehearing en banc was entered
on February 17, 2021. This Court has jurisdiction
pursuant to 28 U.S.C. § 1254(1).
STATUTORY PROVISIONS INVOLVED
Pertinent provisions of the Lanham Act are quoted
at Pet. App. 96a-98a.
INTRODUCTION
Respondent Savannah College of Art and Design,
Inc. (“SCAD”) is a college located in Georgia. SCAD
holds registered service marks with the Patent and
Trademark Office (“PTO”) for the words “SCAD” and
“SAVANNAH COLLEGE AND ART AND
DESIGN.” These registrations are limited to the field
of “educational services.”

2
In 2009, Petitioner Sportswear, Inc. began selling
apparel printed with the words “Savannah College of
Art and Design” and “SCAD.” As of 2009, SCAD had
not sold any apparel bearing those words. Nonetheless,
in 2014, SCAD sued Sportswear for trademark
infringement.
SCAD’s claim differed from the typical trademark
claim. In a typical trademark case, the plaintiff alleges
that a defendant’s use of the plaintiff’s mark will
confuse consumers into thinking that the defendant’s
products originated with the plaintiff. Here, however,
SCAD never produced any evidence that consumers
might be confused as to the origin of Sportswear’s
apparel.
Nonetheless, SCAD contended that
regardless of the lack of any actual or potential
confusion, Sportswear should not be allowed to sell any
apparel with SCAD’s name on it.
SCAD should have lost. To prove infringement,
SCAD was required to make two showings: first, that it
had the right to exclusive use of its mark on apparel,
and second, that Sportswear infringed that right.
SCAD’s case failed on both counts.
SCAD failed to make the first showing because it
does not have the exclusive right to use its mark on
apparel. Under the Lanham Act, SCAD’s registrations
are “prima facie evidence … of the registrant’s
exclusive right to use the registered mark in commerce
on or in connection with the goods or services specified
in the registration.” 15 U.S.C. § 1115(a). Here, “the
goods or services specified in the registration,” id., are
educational services.
Apparel is not educational
services. Therefore, SCAD’s registrations did not

3
confer it the exclusive right to use its mark on apparel.
SCAD failed to make the second showing, too.
Proving infringement under the Lanham Act requires
showing a likelihood of confusion. Here, SCAD did not
show a likelihood of confusion. Although SCAD
provided evidence that Sportswear’s apparel referred
to SCAD (this was undisputed and the whole point of
the apparel), it provided no evidence that anyone
thought, or would be likely to think, that the apparel
came from SCAD. Because there was no likelihood of
confusion as to the apparel’s origins, there was no
trademark infringement.
Yet, the Eleventh Circuit ruled for SCAD on both
issues. How could it possibly have justified this result?
The answer is that it couldn’t. Instead, the Eleventh
Circuit deemed itself bound by a 46-year-old
precedent—Boston Professional Hockey Ass’n v.
Dallas Cap & Emblem Manufacturing, Inc., 510 F.2d
1004 (5th Cir. 1975)1—a decision that the Eleventh
Circuit itself acknowledged to be indefensible, and in
conflict with decisions from other circuits.
The Eleventh Circuit resolved these two issues in
separate published decisions. In its first decision, the
court held that the scope of SCAD’s registration—
which, by its terms, applied only to educational
services—extended to apparel. Pet. App. 29a. The
court explained that Boston Hockey dictated this
1 All Fifth Circuit decisions handed down prior to October 1, 1981,

are binding precedent in the Eleventh Circuit. See N. Ins. Co. of
N.Y. v. Chatham Cnty., 547 U.S. 189, 192 & n.1 (2006).

4
result, and because Boston Hockey “constitutes binding
precedent,” the Eleventh Circuit was “bound to follow”
it. Id.
But the Eleventh Circuit acknowledged that this
result was wrong. The court noted that “Boston
Hockey does not provide any basis for extending
service mark rights to goods.” Pet. App. 44a. It also
observed that “other circuits have said that service
marks do not by their nature extend to goods or
products.” Id. After walking through Boston Hockey’s
numerous analytical flaws, the Eleventh Circuit stated
that it had “yet to hear” of any doctrinal justification
for the result it was constrained by precedent to reach.
Pet. App. 47a.
In its second decision, the Eleventh Circuit ruled
that SCAD had proven trademark infringement,
finding once again that “Boston Hockey and its progeny
control our analysis here.” Pet. App. 22a. The
Eleventh Circuit did not shy away from the
weaknesses in SCAD’s case. As the Eleventh Circuit
acknowledged, SCAD could not produce any evidence
that any consumer thought that Sportswear’s apparel
originated from, or was sponsored by, SCAD. The best
SCAD could do was an email showing that a SCAD
employee—not a member of the public—was unsure
whether SCAD had authorized Sportswear’s apparel.
Pet. App. 23a.
Yet the Eleventh Circuit again found that under
Boston Hockey, the mere fact that Sportswear’s
apparel referred to SCAD was sufficient to show
likelihood of confusion. In the court’s view, Sportswear
was benefitting from SCAD’s reputation and goodwill

5
among consumers seeking apparel bearing SCAD’s
name—and under Boston Hockey, deriving this benefit
was a violation of the Lanham Act, irrespective of
whether those consumers were confused as to whether
SCAD had produced or authorized the apparel.
This Court should grant certiorari and reverse. As
the Eleventh Circuit correctly recognized, Boston
Hockey is wrong and conflicts with decisions of other
circuits. And this is no ordinary circuit split. Boston
Hockey is irreconcilable with the Federal Circuit’s
jurisprudence concerning the requirements to register
a mark. In the Federal Circuit—which has exclusive
jurisdiction over appeals from the Patent and
Trademark Office—SCAD would have had no chance of
obtaining a federally-registered mark covering apparel.
Yet SCAD was able to do the next best thing—obtain a
narrow registration for educational services; take
advantage of the Eleventh Circuit’s indefensible
Boston Hockey precedent to significantly expand the
scope of that registration to apparel; and then take
advantage of Boston Hockey again to establish
trademark infringement even without any evidence of a
likelihood of consumer confusion.
The asymmetry between the Eleventh Circuit’s
standard and the standards applied by other circuits
undermines the Lanham Act’s mission of ensuring
uniform nationwide standards for trademark
enforcement. This Court’s review is needed.
STATEMENT OF THE CASE
A. Statutory Background
The Lanham Act permits persons to obtain federal

6
registrations for “trademarks” and “service marks.” A
trademark is a “word, name, symbol, or device, or any
combination thereof,” used “to identify and distinguish
[one’s] goods … from those manufactured or sold by
others and to indicate the source of the goods, even if
that source is unknown.” 15 U.S.C. § 1127. A service
mark is similar to a trademark, except that it identifies
services, rather than goods. Id. Obtaining federal
registration for either a trademark or a service mark
requires a showing that the mark has been “use[d] in
commerce” with the specific good or service. Id.
For both trademarks and service marks, the effect
of registering the mark is that the federal registration
“shall be admissible in evidence and shall be prima
facie evidence of the validity of the registered mark
and of the registration of the mark, of the registrant’s
ownership of the mark, and of the registrant’s exclusive
right to use the registered mark in commerce on or in
connection with the goods or services specified in the
registration.” 15 U.S.C. § 1115(a) (emphasis added).
The Lanham Act provides two federal causes of
action relevant to this case. First, it provides a cause of
action for infringement of a federally-registered mark.
As relevant here, that provision provides:
Any person who shall, without the consent of the
registrant, … use in commerce any reproduction,
counterfeit, copy, or colorable imitation of a
registered mark in connection with the sale,
offering for sale, distribution, or advertising of
any goods or services on or in connection with
which such use is likely to cause confusion, or to
cause mistake, or to deceive, … shall be liable in

7
a civil action by the registrant.
15 U.S.C. § 1114(1)(a). Second, the Lanham Act
provides a cause of action for unfair competition,
regardless of whether the plaintiff owns a federallyregistered mark. As relevant here, that provision bars
the use of a mark in a manner that “is likely to cause
confusion, or to cause mistake, or to deceive as to the
affiliation, connection, or association of such person
with another person, or as to the origin, sponsorship, or
approval of his or her goods, services, or commercial
activities by another person.” 15 U.S.C. § 1125(a).
“[Section 1125] prohibits a broader range of
practices than does [Section 1114], which applies to
registered marks.” Two Pesos, Inc. v. Taco Cabana,
Inc., 505 U.S. 763, 768 (1992) (internal quotation marks
omitted). But “the general principles qualifying a mark
for registration … are for the most part applicable in
determining whether an unregistered mark is entitled
to protection under [Section 1125(a)].” Id.
In
particular, regardless of whether a mark is registered
or unregistered, it is not entitled to protection in
litigation unless it is actually being used in association
with a particular good or service. Pet. App. 45a-46a;
Am. Steel Foundries v. Robertson, 269 U.S. 372, 380
(1926) (“There is no property in a trade-mark apart
from the business or trade in connection with which it
is employed.”).
Thus, when registering a mark, the PTO considers
the mark “as used on the goods described in the
application.” See B&B Hardware, Inc. v. Hargis
Industries, Inc., 575 U.S. 138, 156 (2015). And although
a holder of a registered mark may also enjoy a common-

8
law right to exclude others from using marks on goods
or services dissimilar from those in the registration,
that right exists only if that holder uses the mark on
those dissimilar goods or services. Id. at 155-56
(stating that mark holder may have “common-law
rights in usages not encompassed by its registration”).
B. First Eleventh Circuit Decision
SCAD is a college based in Georgia. Pet. App. 30a.
SCAD holds federally-registered service marks for the
words “SCAD” and “SAVANNAH COLLEGE OF
ART AND DESIGN.” Pet. App. 31a. “The federal
registrations for these marks were issued for ‘education
services,’ i.e., the provision of ‘instruction and training
at the undergraduate, graduate, and post-graduate
levels.’” Pet. App. 30a.
Sportswear is an online seller of “fan” clothing and
other items, such as baseball caps and duffel bags. Pet.
App. 31a. Since 2003, Sportswear has sold “made-toorder apparel and related goods” for many types of
entities, including colleges, Greek and military
organizations, and city departments. Id. “To purchase
an item from Sportswear, a customer is generally
required to select its preferred organization’s ‘online
store,’” and “choose an item like a t-shirt or hat.” Pet.
App. 31-32a.
A customer may then select an
organization’s name to be placed on that item. Id.
“Sportswear’s website then generates a sample of the
selection, prompts the customer to checkout online, and
ships the final product to the customer’s home in a
package indicating that it was delivered from a
Sportswear facility.” Pet. App. 32a. Sportswear’s
website bears “prominent disclaimers” such as “This

9
store is not affiliated with, sponsored or endorsed by
Savannah College of Art and Design.” Pet. App. 21a.
In August 2009, Sportswear began selling apparel
printed with the words “SAVANNAH COLLEGE OF
ART AND DESIGN” and “SCAD.” Pet. App. 32a. In
2014, SCAD sued Sportswear for infringement of its
marks under 15 U.S.C. §§ 1114 and 1125. Id.
The District Court granted summary judgment to
Sportswear. The District Court observed that SCAD’s
registrations were “for use of the marks in connection
with educational services,” and that SCAD lacked
“registrations for the marks related to apparel.” Pet.
App. 84a. Thus, “[b]ecause [SCAD] does not have
registered marks for apparel, it must show that it used
the marks in commerce prior to [Sportswear’s] use.”
Id.
The Court concluded that “[SCAD] has not
presented that evidence.” Id.
The Eleventh Circuit reversed. It concluded that
because this case “does not involve the alleged
infringement of a common-law trademark,” “the date of
SCAD’s first use of its marks on goods is not
determinative.” Pet. App. 29a. In the Eleventh
Circuit’s view, when parties “assert common-law
trademark rights,” “priority of use become[s] a critical
issue.” Pet. App. 37a. But because SCAD’s “claims
revolve around federally-registered marks,” the
question of priority of use did not apply either to
SCAD’s § 1114 claim or to its § 1125 claim. Id.
Rather, the court held that Boston Hockey
“controls, as it extends protection for federallyregistered service marks to goods.” Pet. App. 29a. It

10
stated that although “Boston Hockey does not explain
how or why this is so, it constitutes binding precedent
that we are bound to follow.” Id.
As the Eleventh Circuit framed the issue, the
question was whether SCAD “has enforceable service
mark rights that extend—beyond the services listed in
its federal registrations—to goods in order to satisfy
the first prong of an infringement analysis: the validity
and scope of a contested mark.” Pet. App. 37a. It held
that “Boston Hockey provides the answer to that
question.” Id. “Boston Hockey extends protection for
federally-registered service marks to goods, and
therefore beyond the area of registration listed in the
certificate.” Pet. App. 39a.
The court summarized the facts of Boston Hockey,
where several NHL teams “sued to prevent a
manufacturer from selling embroidered sew-on patches
featuring the teams’ federally-registered service
marks.” Id. Most of the teams’ federal registrations
were for services, not goods. Id. Yet, the Boston
Hockey court concluded that “granting relief was
appropriate because the teams’ efforts gave commercial
value to the patches.” Pet. App. 40a. “Absent from the
panel’s analysis was an explanation for how or why the
teams’ registrations for ‘hockey entertainment services’
provided statutory protection as to goods like
embroidered patches.” Id.
The court below explained that “Boston Hockey,
though in our view lacking critical analysis, implicitly
but necessarily supports the proposition that the holder
of a federally-registered service mark need not register
that mark for goods—or provide evidence of prior use

11
of that mark on goods—in order to establish the
unrestricted validity and scope of the service mark, or
to protect against another’s allegedly infringing use of
that mark on goods.” Pet. App. 41a (emphasis added).
Thus, “[o]n remand, the district court will have to
review SCAD’s claims under § 1114 and § 1125 in light
of Boston Hockey.” Id. The court therefore remanded
to the District Court to conduct the likelihood of
confusion analysis.
The court then “pause[d] to note the unexplained
analytical leap in Boston Hockey.” Pet. App. 44a.2 The
court observed that under 15 U.S.C. § 1115(a),
“registration is prima facie evidence of the …
registrant’s exclusive right to use the registered mark
in commerce on or in connection with the goods or
services specified in the registration.” Id. (emphasis in
original; internal quotation marks omitted). “If that is
so,” the court stated, “one would think that there
should be some legal basis for extending the scope of a
registered service mark in a certain field (e.g.,
educational services) to a different category altogether
(e.g., goods).” Id. But “Boston Hockey does not
provide any basis for extending service mark rights to
goods,” which, the court stated, was “potentially
problematic for several reasons.” Id.
First, other circuits and commentators had
previously “said that service marks do not by their
nature extend to goods or products.” Id. “If these
2 Judge Martin did not join this portion of the court’s opinion. Pet.

App. 30a n.1.

12
other circuits and commentators are wrong, in whole or
in part, we should explain why.” Pet. App. 45a.
Second, “a right in a mark is not a ‘right in gross.’”
Id. (quoting United Drug Co. v. Theodore Rectanus Co.,
248 U.S. 90, 97 (1918)).3 But Boston Hockey “seems to
provide the holder of a service mark with a form of
monopolistic protection, a so-called ‘independent right
to exclude.’” Id. (citation omitted).
Third, “trademark (and service mark) rights are
derived through use,” and the court had not “critically
analyzed whether the procedural advantages of a
mark’s registration or incontestability can serve as a
basis for expanding the scope of service mark
protection to a tangible good or product.” Pet. App. 46a
(internal citations omitted).
The court concluded: “There may be a sound
doctrinal basis for what Boston Hockey did. But unless
the concept of confusion completely swallows the
antecedent question of the scope of a registered mark,
we have yet to hear of it.” Pet. App. 47a. It stated that
“If Boston Hockey did not exist, the district court’s
rationale might provide a reasonable way of analyzing
the alleged infringement of registered service marks
through their use on goods. But Boston Hockey is in
the books, and it compels reversal of summary
judgment in favor of Sportswear.” Id.

3 United Drug held that a trademark used for a product could not

be extended to prevent use of a similar mark for retail services.
248 U.S. at 97-98.

13
The Eleventh Circuit denied rehearing
rehearing en banc. Pet. App. 93a-95a.

and

C. Second Eleventh Circuit Decision
On remand, the district court granted summary
judgment to SCAD, finding that SCAD had established
a likelihood of confusion. Pet. App. 49a-79a. The
district court entered a permanent nationwide
injunction, as authorized by the Lanham Act. 15 U.S.C.
§ 1116. The injunction barred Sportswear from selling
any products bearing the SCAD marks in the
continental United States. Pet. App. 87a-90a.
The Eleventh Circuit affirmed, applying the
multifactor test for determining likelihood of confusion.
It first concluded that SCAD’s descriptive marks had
become strong based on the school’s history and
existence “[a]t the time the parties filed their crossmotions for summary judgment,” and then concluded
that Sportswear had copied those exact marks. Pet.
App. 14a, 17a.
The court then turned to the “similarity-of-goods
factor,” which “assesses ‘whether the goods are so
related in the minds of consumers that they get the
sense a single producer is likely to put out both goods.’”
Pet. App. 17a. This factor should have supported
Sportswear, given that apparel is nothing like
educational services. But, in the court’s view, “this
factor is less important in cases—like this one—that
concern the use of the plaintiff’s service marks on the
defendant’s good for the very reason that the plaintiff’s
marks embody the plaintiff’s goodwill and reputation.”
Id. For similar reasons, the court discounted whether

14
there was similarity of actual sales methods or
advertising. Id.
Next, the court turned to “Sportswear’s intent to
misappropriate SCAD’s goodwill.” Pet. App. 18a.
Sportswear pointed out that its website states: “‘This
store is not sponsored or endorsed by Savannah
College of Art and Design.’” Pet. App. 20a-21a.
Nevertheless, the court held that Boston Hockey
precluded Sportswear from relying on this disclaimer.
Id. As in Boston Hockey, the customers who purchased
Sportswear’s merchandise “did so because of the
merchandise’s affiliation with the marks and because
what the marks represent are meaningful to buyers.”
Pet. App. 22a. Thus, whether consumers saw and
understood the disclaimer was, in the court’s view,
immaterial as to whether consumers would be
confused. Id.
Finally, as to actual confusion, SCAD’s sole
evidence was that “a parent of a student sent a link to
Sportswear’s website to one of SCAD’s employees, and
the employees were unsure whether Sportswear’s use
was authorized.” Pet. App. 23a. This was “hardly
strong evidence of actual confusion.” Id. Nevertheless,
the court concluded that there would be a likelihood of
confusion. Id.
The Eleventh Circuit denied rehearing
rehearing en banc. Pet. App. 91a-92a.

and

REASONS FOR GRANTING THE WRIT
In its two decisions, the Eleventh Circuit concluded
that: (1) The scope of SCAD’s service mark
registrations extended to apparel goods, even though

15
SCAD’s registrations, by their terms, apply only to
“educational services,” and (2) SCAD had established
trademark infringement merely because Sportswear’s
apparel referred to SCAD. Both decisions warrant
review.
I.

THE ELEVENTH CIRCUIT’S SCOPE-OFTHE-MARK
HOLDING
WARRANTS
REVIEW.

In its first question presented, Sportswear
challenges the Eleventh Circuit’s 2017 decision, which
held that Sportswear’s registration—which, by its
terms, applies only to “educational services”—had
unrestricted scope.
As the Eleventh Circuit
acknowledged, that decision is indefensible and
conflicts with decisions from other circuits.
A. The Eleventh Circuit’s Decision is Wrong.
The Eleventh Circuit awarded SCAD’s federallyregistered marks “unrestricted … scope.” Pet. App.
41a. The court concluded that because SCAD held a
registration on educational services, it could assert that
mark against unrelated products—here, apparel. Thus,
the effect of the Eleventh Circuit’s first decision is that
the identification of the good or service in the
registration is irrelevant. Once a court ascertains that
a trademark holder has a registered mark on anything,
it can then ignore the scope of the registration and bar
the use of the mark on everything so long as there is a
likelihood of confusion—which, under the Eleventh
Circuit’s second decision, merely requires that
consumers might recognize the mark as belonging to
the registrant. See infra at 28-29.

16
The Eleventh Circuit’s first decision is wrong for
the reason stated by the Eleventh Circuit: It allows
“the concept of confusion” to “completely swallow[] the
antecedent question of the scope of a registered mark.”
Pet. App. 47a. Whether there was a likelihood of
confusion—the test for infringement—should have
been irrelevant because there was nothing to infringe.
SCAD lacked any exclusive right to use the “SCAD”
mark on apparel, and thus had no right to exclude
Sportswear’s products.
Indeed, the Eleventh Circuit could not conceive of
any ground on which to defend the legal rule it applied.
Boston Hockey “does not provide any basis for
extending service mark rights to goods.” Pet. App. 44a.
And the Eleventh Circuit had “yet to hear of” of any
“sound doctrinal basis for what Boston Hockey did.”
Pet. App. 47a.
No “sound doctrinal basis” exists. SCAD’s federal
registrations are “prima facie evidence … of the
registrant’s exclusive right to use the registered mark
in commerce on or in connection with the goods or
services specified in the registration.” 15 U.S.C.
§ 1115(a). The “goods or services specified in the
registration” are educational services.
Those
registrations therefore did not confer on SCAD any
rights over apparel goods.
Moreover, the right to register a mark arises only
through use: an applicant cannot register a trademark
or service mark unless it is already using that
trademark or service mark for the goods or services
listed in the registration. B&B Hardware, 575 U.S. at
143. When Sportswear began its apparel offerings in

17
2009, SCAD was using its mark in connection with the
sale of educational services, not apparel. The Lanham
Act provides no basis for extending the scope of
SCAD’s registration to apparel.
The Eleventh Circuit provided a detailed and
persuasive explanation of Boston Hockey’s faults. Pet.
App. 44a-47a. The Eleventh Circuit was correct:
Boston Hockey is wrong. SCAD’s federal registrations
should not have conferred SCAD with any rights with
respect to apparel.
B. The Eleventh Circuit’s decision conflicts with
decisions from other circuits.
The Second, Third, Fourth, and Ninth Circuits have
rejected the Eleventh Circuit’s legal standard.
1. In the Third Circuit, the Scope of Rights
Based on a Federal Registration Extends
Only to Goods or Services Identified in
the Registration.
The first Eleventh Circuit decision squarely
conflicts with Natural Footwear Ltd. v. Hart, Schaffner
& Marx, 760 F.2d 1383 (3d Cir. 1985) (Becker, J.).
Natural Footwear was a trademark dispute over the
mark “ROOTS.”
The plaintiff, Natural, obtained
federal registration for the mark ROOTS, limited to
“Footwear – Namely Shoes, Slippers and Boots.” Id. at
1396 (capitalization omitted). Thereafter, Natural sued
the defendant, Roots, Inc., over the use of the “Roots”
mark in its retail clothing stores. Id. at 1387.
The Third Circuit held that Natural could not assert
a Lanham Act claim based on its federally-registered

18
mark, because that mark was for footwear—not
apparel. The Third Circuit emphasized that under the
Lanham Act, “the protection afforded by registration
extends to ‘the goods or services specified in the
registration subject to any conditions or limitations
stated therein.’” Id. at 1395-96 (emphasis in original)
(quoting 15 U.S.C. § 1115(a)). The court concluded that
the Lanham Act’s “purpose is best served by limiting
the impact of a registered mark to only the specific
terms of the registration so as to allow parties
interested in marketing products with a new mark to
rely as fully as possible on the [federal trademark]
registry.” Id. at 1396. The court held that its rule “will
appropriately encourage registrants who wish to
receive the full scope of the Act’s protection in regard
to the new use of the mark to file a new application
covering the new products and making reference to the
earlier registration once they begin to sell a new line of
products under their registered mark.” Id.
The Third Circuit then “turn[ed] to the scope of
Natural’s national trademark rights.” Id. It observed
that Natural’s trademark registration identified only
footwear. Id. at 1396-97. Thus, with respect to
Natural’s claims for “relief based on the federal
registration of the ROOTS mark, Natural is only
entitled to gain relief pursuant to the Lanham Act in
regard to its marketing of footwear.” Id. at 1397.
The Third Circuit’s decision conflicts with the
decision below. The Third Circuit “limit[s] the impact of
a registered mark to only the specific terms of the
registration.” Id. at 1396. In this case, the Eleventh
Circuit rejected that rule.

19
Rather than misconstruing the scope of Natural’s
federal registration, the Third Circuit explained that
“Natural’s trademark rights in accessories and clothing
must be considered under the common law.” Id. at 1397
n.31. It emphasized that common-law trademark rights
“are not necessarily limited to the product originally
identified by the trademark. Rather, protection from
the date of the first use of the mark may extend to
related products that are later sold under the common
law mark.” Id. at 1396 n.27. But, the Third Circuit held
that the scope of common-law rights depended on who
was using the mark first, and remanded for further
consideration of that issue. Id. at 1406-07.
The District Court applied a similar analysis here,
holding that SCAD lacked common-law rights before
Sportswear first used the marks. Pet. App. 84a. By
contrast, the Eleventh Circuit held that the scope of
SCAD’s federal registration for educational services
extended to apparel—thus foreclosing the need for a
common-law analysis of Sportswear’s prior use of the
marks on apparel. Pet. App. 47a.
2. In the Second, Fourth, and Ninth
Circuits, the Scope of Rights Based on a
Federal Registration Extends to the
Goods or Services Identified in the
Registration and “Related” Goods or
Services.
The Second, Fourth, and Ninth Circuits have held
that the scope of a mark extends not only to the specific
good or service identified in the registration, but to
goods or services “related” thereto. Those circuits do
not, however, apply the Eleventh Circuit’s rule that the

20
scope of a federal service mark is “unrestricted.” Pet.
App. 41a.
In Chandon Champagne Corp. v. San Marino Wine
Corp., 335 F.2d 531 (2d Cir. 1964), Chandon registered
the “Dom Perignon” mark for champagne. Id. at 533.
San Marino started selling cheap sparkling wine under
the name “Pierre Perignon.” Id. at 533-34. Chandon
sued San Marino for trademark infringement, but the
District Court rejected Chandon’s claim, noting the
difference between the “finest and dearest of French
champagnes” and the “low-priced American vintage.”
Id. at 534.
The Second Circuit reversed, holding that this
analysis “embodies too restricted a notion of the
protection that Congress afforded.” Id. The Second
Circuit adopted the following rule: “A registered trademark is safeguarded against simulation not only on
competing goods, but on goods so related in the market
to those on which the trade-mark is used that the good
or ill repute of the one type of goods is likely to be
visited upon the other.” Id. (internal quotation marks
omitted). Thus, the scope of Chandon’s protection
extended not only to champagne, but also to cheap
sparkling wine. Id.
There is a fundamental difference between the
Second Circuit’s analysis in Chandon and the Eleventh
Circuit’s analysis below. In Chandon, the court held
that Chandon could enforce its marks against a seller of
cheap sparkling wine, even though Chandon registered
its mark for champagne, because the defendant’s sales
infringed on Chandon’s right to use its mark on
champagne. If the defendant sold cheap sparkling wine

21
with the Chandon mark, Chandon’s ability to use its
mark on champagne would be infringed—because
consumers shopping for champagne would infer that
Chandon sells low-quality alcohol.
That is emphatically not the Boston Hockey rule.
The Boston Hockey rule does not merely extend the
scope of a federally-registered mark to goods similar to
the goods or services in the registration. Instead, it
extends the scope of a service mark to all goods and
services—effectively
rendering
irrelevant
the
identification of goods or services in the registration.
The Ninth Circuit followed the Second Circuit in
Applied Information Services Corp. v. eBay, Inc., 511
F.3d 966 (9th Cir. 2007). In that case, AIS registered
the mark “SmartSearch” for use on “computer software
and instruction manuals.” Id. at 968-69. AIS then sued
eBay in connection with eBay’s use of the
“SmartSearch” mark in connection with eBay’s
“advanced search options.” Id.
The District Court held that AIS did not have a
“protectable interest” in the mark because eBay was
not selling the item identified in AIS’s registration, id.
at 968, but the Ninth Circuit reversed. It held that
“[h]aving established a protectable interest by proving
it is the owner of a registered trademark, the owner
does not additionally have to show that the defendant’s
allegedly confusing use involves the same goods or
services listed in the registration.” Id. at 972.
But its analysis of the issue differed markedly from
the Eleventh Circuit’s analysis. The Ninth Circuit
distinguished its prior case in Levi Strauss & Co. v.

22
Blue Bell, Inc., 778 F.2d 1352 (9th Cir. 1985) (en banc),
in which it had held that Levi Strauss could not pursue
a “trademark infringement claim … based on an alleged
trademark in clothing pocket tabs,” when its “federally
registered trademark was limited to pants pocket
tabs.” Applied Information, 511 F.3d at 972 (citing
Levi Strauss, 778 F.2d at 1359).
In Applied
Information, the Ninth Circuit explained that where “a
plaintiff bases its trademark infringement claim upon
the confusion the defendant’s use will create for the
plaintiff’s use of its mark in connection with its own
registered goods or services, that claim comes within
the scope of its protectable interest.” Id. (emphasis in
original).
Thus, like the Second Circuit, the Ninth Circuit
holds that a mark’s scope extends to products that will
cause confusion when consumers shop for the plaintiff’s
own registered products. So if a defendant’s products
will cause confusion for a consumer shopping for
software (or champagne or an education), then the
plaintiff’s exclusive right to use its mark on software
(or champagne or education) will extend to the
defendant’s products. Here, however, there was no
allegation that a consumer would be confused by
Sportswear’s apparel when shopping for educational
services. Instead, the Eleventh Circuit held that the
scope of SCAD’s mark extended to any product
bearing SCAD’s name.
Finally, in Synergistic International, LLC v.
Korman, 470 F.3d 162 (4th Cir. 2006), the Fourth
Circuit similarly held that the scope of a federallyregistered mark extended to goods or services related

23
to the goods or services named in the registration. In
that case, Synergistic registered the mark “GLASS
DOCTOR®” in connection with the “‘installation of
glass in buildings and vehicles.’” Id. at 172. Synergistic
sued the defendant, Korman, over the use of the
“GLASS DOCTOR®” mark in connection with the
repair of windshields. Relying on the Third Circuit’s
Natural Footwear decision, Korman argued that
“Synergistic cannot own the exclusive right to use its
‘GLASS DOCTOR®’ mark in connection with the
repair of windshields, in that it was never registered
for that purpose.” Id. at 173.
The Fourth Circuit disagreed. The court expressly
rejected Natural Footwear, emphasizing that it had
“not adopted such a narrow view of a trademark’s
registration.” Id. Instead, it held that “a suggestive
mark is entitled to protection against the same or a
confusing mark on the same product, or related
products, and even on those which may be considered
by some to be unrelated but which the public is likely to
assume emanate from the trademark owner.” Id.
(internal quotation marks omitted). It found it
“apparent that windshield repair and windshield
installation are related services. In fact, the parties
have stipulated that potential customers have called
Korman assuming that her business also installs
windshields.” Id. Thus, the “scope of protection” for
Synergistic’s mark extended to “Korman’s use of a
similar trademark for similar services.” Id.
Thus, consistent with the Second and Ninth
Circuits, the Fourth Circuit reasoned that windshield
repair and windshield installation are similar services—

24
the person who repairs a windshield is also likely to
install a windshield—so the scope of protection for a
mark for windshield installation extended to windshield
repair. That is nothing like the rule adopted by the
Eleventh Circuit. Educational services and clothes are
completely different. No one would show up at a retail
clothing store and expect to find a university education
on the shelf.
Indeed, unlike the Fourth Circuit, the Eleventh
Circuit did not even consider whether there was a
similarity between the services in the registration and
the goods sold by Sportswear. Instead, it followed
Boston Hockey, which made that comparison
unnecessary.
C. Because there is now a final judgment, there
are no vehicle problems.
Sportswear filed an interlocutory petition for
certiorari challenging the Eleventh Circuit’s first
decision, which this Court denied. That denial is no
basis to deny certiorari here. This Court “generally
await[s] final judgment in the lower courts before
exercising [its] certiorari jurisdiction,” and an
interlocutory denial of certiorari “does not, of course,
preclude [a litigant] from raising the same issues in a
later petition, after final judgment has been rendered.”
Virginia Military Institute v. United States, 508 U.S.
946, 946 (1993) (Scalia, J., respecting denial of
certiorari).
In this case, SCAD’s prior Brief in Opposition
(“2018 BIO”) argued that the petition should be denied
because the lower courts had not yet resolved

25
likelihood of confusion, posing a vehicle problem. There
is now a final judgment, so the vehicle problem is gone
and review is now warranted.
Sportswear’s prior petition contended that the
scope of Sportswear’s service mark should not extend
to apparel—an unrelated good. In its BIO, SCAD
contended that Sportswear’s petition was premature.
In SCAD’s view, the question of whether “goods and
services are ‘related’” was co-extensive with the
question of whether there would be a likelihood of
confusion. 2018 BIO at 2. Further, as SCAD pointed
out, the lower courts had not yet resolved the
likelihood-of-confusion inquiry. Id.
SCAD represented that it was “prepared to show
that the goods are related, in that consumers would be
confused about the source, sponsorship, or affiliation of
Sportswear’s knock-off apparel.” Id. at 2-3. SCAD
claimed that the case arose “in an interlocutory posture
in which the factual questions about whether the goods
here are ‘related’—an essential premise of the Question
presented—remain unresolved.” Id. at 27. In its
closing paragraph, SCAD stated: “If the law really is as
broken as Sportswear suggests, another case will come
along soon, or this case will come back.” Id. at 28.
As SCAD predicted, the case has come back
because the law is fundamentally broken—and now
that there is a final judgment, the vehicle problem
asserted in the BIO has vanished.
First, SCAD’s promise that it is “prepared to show
that the goods are related, in that consumers would be
confused about the source, sponsorship, or affiliation of

26
Sportswear’s knock-off apparel,” id. at 2-3, turned out
to be a complete bluff. As explained below, SCAD
proffered no evidence that any consumer was or would
likely be confused as to the source of Sportswear’s
apparel. Infra, at 27.
More pertinently, in its likelihood-of-confusion
analysis, the Eleventh Circuit did not even try to
defend the improbable proposition that there is any
similarity between the services in the registration (i.e.,
educational services) and the accused product (i.e.,
apparel). Instead, it said that the similarity between
the plaintiff’s and defendant’s products “is less
important in cases—like this one—that concern the use
of the plaintiff’s service marks on the defendant’s goods
for the very reason that the plaintiff’s marks embody
the plaintiff’s goodwill and reputation.” Pet. App. 17a.
Of course, this statement depends on the premise that
the scope of a mark extends to dissimilar goods or
services when marks “embody the plaintiff’s goodwill
and reputation.” Id. And, as the Eleventh Circuit’s
second opinion made clear, that premise derives
entirely from Boston Hockey. Pet. App. 22a-23a
(explaining that Sportswear sold its apparel for “the
same reason the Boston Hockey defendant sold patches
bearing the teams’ trademarks: it hoped to benefit from
the patches’ association with what they represented”).
Sportswear disagrees with the Eleventh Circuit’s
likelihood-of-confusion analysis, which furnishes the
basis for its second question presented. For purposes
of the first question, however, the important point is
that there is a final judgment with a closed factual
record that has crystallized the dispute. The record

27
now definitively shows that the Eleventh Circuit
permitted SCAD to assert its mark against any good or
service that “embod[ied] the plaintiff’s goodwill and
reputation.” Pet. App. 17a. The court required no
showing of any relationship between the service in the
registration and the accused product. That decision is
wrong and is now ripe for review.
II.

THE
ELEVENTH
CIRCUIT’S
LIKELIHOOD-OF-CONFUSION HOLDING
WARRANTS REVIEW.

In its second decision, the Eleventh Circuit was
again constrained by Boston Hockey to hold that SCAD
had established a likelihood of confusion. That decision,
too, is wrong and perpetuates a circuit split.
A. The Eleventh Circuit’s Decision is Wrong.
To prevail on its claim of trademark infringement,
SCAD was required to prove a likelihood of confusion.
It failed to do so. First, there was no evidence that any
consumer ever thought that SCAD’s products
originated with, or were endorsed by, SCAD. SCAD’s
best evidence was an email showing that a SCAD
employee—not a consumer—was unsure whether
SCAD had authorized Sportswear’s apparel. Pet. App.
23a.
Second, Sportswear provided consumers with an
explicit disclaimer that its products were not endorsed
by SCAD. There was no allegation that this disclaimer
was somehow hidden or unnoticed—even the Eleventh
Circuit acknowledged that the disclaimer was
“prominent.” Pet. App. 20a.

28
Why, then, did the Eleventh Circuit find a likelihood
of confusion? The answer, again, was Boston Hockey.
Boston Hockey held that the unauthorized
manufacturing of NHL cloth emblems was trademark
infringement—regardless of whether the manufacturer
made clear it was not affiliated with the team. The
Boston Hockey court reasoned:
The confusion or deceit requirement is met by
the fact that the defendant duplicated the
protected trademarks and sold them to the
public knowing that the public would identify
them as being the teams’ trademarks. The
certain knowledge of the buyer that the source
and origin of the trademark symbols were in
plaintiffs satisfies the requirement of the
[Lanham] act. The argument that confusion must
be as to the source of the manufacture of the
emblem itself is unpersuasive, where the
trademark, originated by the team, is the
triggering mechanism for the sale of the
emblem.
510 F.2d at 1012.
Hence, the manufacturer’s
disclaimer as to the origin of the product could not cure
the purported “confusion” drawn merely from copying
something recognizable: “The exact duplication of the
symbol and the sale as the team’s emblem satisfying
the confusion requirement of the law, words which
indicate it was not authorized by the trademark owner
are insufficient to remedy the illegal confusion.” Id. at
1013.
In the decision below, the Eleventh Circuit was
constrained to adopt the same understanding of

29
“confusion” as Boston Hockey.
It found that
Sportswear’s mere copying of a mark that incorporated
SCAD’s goodwill and reputation—rather than any
confusion regarding the source of Sportswear’s goods—
was sufficient to satisfy the “confusion” requirement:
“the concern for confusion does not arise from the
defendant’s unfair competition with the plaintiff’s
products, but rather from the defendant’s misuse of the
plaintiff’s reputation and good will as embodied in the
plaintiff’s mark.” Pet. App. 11a (emphasis added;
internal quotation marks omitted). Hence, expressly
following Boston Hockey, the Eleventh Circuit found
that the disclaimer on Sportswear’s website could not
cure the alleged confusion: “as in SCAD I, Boston
Hockey and its progeny control our analysis here—this
time on the disclaimer issue—and they require us to
find that the intent factor does not favor Sportswear.”
Pet. App. 22a. The court emphasized the factual
similarity to Boston Hockey:
Like the intended customers in Boston Hockey,
… the customers who purchased Sportswear’s
SCAD-branded merchandise … did so because of
the merchandise’s affiliation with the marks and
because what the marks represent are
meaningful to buyers. Indeed, that’s the same
reason the Boston Hockey defendant sold
patches bearing the teams’ trademarks: it hoped
to benefit from the patches’ association with
what they represented.
Pet. App. 22a-23a. The court expressed misgivings
about this decision, but deemed it required by binding
precedent.
Pet. App. 22a (“Perhaps the website

30
disclaimers here may be viewed as negating some of
Sportswear’s intent. But even if they are, … they are
insufficient under our binding precedent to totally
negate the confusion.”).
This aspect of Boston Hockey is wrong too. As this
Court has repeatedly held, the Lanham Act requires a
likelihood of confusion as to whether the defendant was
the source of the goods. Thus, here, SCAD bore the
burden of proving that consumers would think SCAD
was the source of the apparel, not merely that
consumers would understand Sportswear’s apparel as
referring to SCAD. See Dastar Corp. v. Twentieth
Century Fox Film Corp., 539 U.S. 23, 31-32 (2003)
(Lanham Act requires confusion over the “producer of
the tangible product sold in the marketplace,” not “the
ideas or communications that ‘goods’ embody or
contain”); KP Permanent Make-Up, Inc. v. Lasting
Impression I, Inc., 543 U.S. 111, 117 (2004) (Lanham
Act “requires a showing that the defendant’s actual
practice is likely to produce confusion in the minds of
consumers about the origin of the goods or services in
question” (emphasis added)); Moseley v. V Secret
Catalogue, Inc., 537 U.S. 418, 432-33 (2003) (same).
The leading trademark treatise has emphatically
rejected Boston Hockey’s effective elimination of the
likelihood-of-confusion standard:
In the famous 1975 Boston Hockey decision, the
Fifth Circuit appeared to create a new
‘merchandising right’ to control all uses of a
trademark of a sports team. This seemed to be
an independent right to exclude, unmoored to
the traditional rule that likelihood of confusion of

31
source, sponsorship or approval marked the
outer boundaries of trademark infringement.
…
The Boston Hockey decision appeared to say
that infringement did not require proof of a
likelihood that customers would be confused as
to the source or affiliation or sponsorship of
defendant’s product: only that customers
recognized the products as bearing a mark of the
plaintiff. This radical break with traditional
trademark law provoked a storm of criticism,
both from other courts and commentators.
4 J. Thomas McCarthy, McCarthy on Trademarks and
Unfair Competition § 24:10, Westlaw (5th ed., updated
Mar. 2021).
Other commentators have similarly
repudiated
Boston
Hockey’s
creation
of
a
“merchandising right.” See, e.g., Glynn S. Lunney, Jr.,
Trademark’s Judicial De-Evolution: Why Courts Get
Trademark Cases Wrong Repeatedly, 106 Cal. L. Rev.
1195, 1226-27 (2018); Stacey L. Dogan & Mark A.
Lemley, The Merchandising Right: Fragile Theory or
Fait Accompli?, 54 Emory L.J. 461, 475-76 (2005).
The McCarthy treatise states that “[t]he Fifth
Circuit itself later retreated from the heresies of
Boston Hockey,” citing post-Boston Hockey case law.
McCarthy, supra, § 24:10. Regrettably, in the decision
below, those heresies came back with a vengeance. The
Eleventh Circuit effectively conferred on SCAD
exactly what trademark law does not permit: an
“independent right to exclude, unmoored to the
traditional rule” requiring “likelihood of confusion of

32
source, sponsorship or approval.” Id. In other words,
the court conferred a merchandising right. That view
of trademark law was wrong in Boston Hockey and is
still wrong.
B. The Ninth and Tenth Circuits
Expressly Rejected Boston Hockey.

Have

The Ninth and Tenth Circuits have repudiated the
faulty reasoning of Boston Hockey. In International
Order of Job’s Daughters v. Lindeburg & Co., 633 F.2d
912 (9th Cir. 1980), the plaintiff sued the defendant for
the sale of jewelry bearing the plaintiff’s insignia. In
finding for the defendant, the Ninth Circuit “reject[ed]
the reasoning of Boston Hockey.” Id. at 918. It
observed that “[i]nterpreted expansively, Boston
Hockey holds that a trademark’s owner has a complete
monopoly over its use, including its functional use, in
commercial merchandising.” Id. The court rejected
that principle of a merchandising right, holding that the
Lanham Act’s “scope is much narrower: to protect
consumers against deceptive designations of the origin
of goods and, conversely, to enable producers to
differentiate their products from those of others.” Id.
The court concluded that Boston Hockey had
improperly “inject[ed] its evaluation of the equities
between the parties and of the desirability of bestowing
broad property rights on trademark owners.” Id. at
919.
United States v. Giles, 213 F.3d 1247 (10th Cir.
2000), was a criminal case in which the defendant was
charged with trafficking in “patch sets” bearing a
company’s logo, which could be sown onto handbags
and other accessories. Id. at 1248. Relying on Boston

33
Hockey, the government argued that the company’s
trademark rights extended to anything bearing that
trademark, including “patch sets.” See id. at 1249-50.
The Tenth Circuit disagreed. As relevant here, the
court found that the Boston Hockey court “relied upon
a novel and overly broad conception of the rights that a
trademark entails.” Id. at 1250. The court explained
that “[i]n deciding that the emblems should be
protected goods despite the fact that the plaintiffs had
not registered their marks for use on patches, the court
essentially gave the plaintiffs a monopoly over use of
the trademark in commercial merchandising.” Id. This,
the court held, was inappropriate because “trademark
is meant to identify goods so that a customer will not be
confused as to their source,” not to “protect the owner’s
right in an abstract design or other creative product.”
Id. at 1252.
In the Ninth and Tenth Circuits, Sportswear would
have prevailed. If the Lanham’s Act purpose is to
ensure that consumers can “identify goods” so as not to
“be confused as to their source,” Giles, 213 F.3d at 1252,
and “to protect consumers against deceptive
designations of the origin of goods and, conversely, to
enable producers to differentiate their products from
those of others,” Job’s Daughters, 633 F.2d at 918, then
SCAD would have no case. Sportswear prominently
and repeatedly told purchasers that it was not affiliated
with SCAD; it engaged in no deceptive conduct; and
there was obvious differentiation between SCAD’s
educational services and Sportswear’s apparel. Yet
Boston Hockey compelled the Eleventh Circuit to reach
the contrary conclusion.

34
III.

THE ELEVENTH CIRCUIT’S DECISION
CONFLICTS WITH THE FEDERAL
CIRCUIT’S REGISTRATION DECISIONS.

There is a final reason to grant review on both
questions presented: the Eleventh Circuit’s decision
conflicts with the Federal Circuit’s decisions regarding
trademark registration. That conflict is guaranteed to
create significant practical problems in the
administration of the national trademark system.
The Federal Circuit has exclusive jurisdiction over
appeals from the Patent and Trademark Office, and
therefore hears all appeals concerning the criteria for
registering marks. In the Federal Circuit, SCAD could
not have registered its marks for use on apparel.
Under the Lanham Act, an applicant cannot obtain a
registration unless it is actually selling goods with that
trademark affixed to it. 15 U.S.C. § 1127. Under
Federal Circuit precedent, failure to meet this
statutory requirement is grounds for denial of an
application for a trademark registration. See M.Z.
Berger & Co. v. Swatch AG, 787 F.3d 1368, 1375 (Fed.
Cir. 2015). For instance, if an applicant generates
images of a product bearing the mark, but the images
were “created with an intention to advance the
prosecution of the trademark application rather than an
intention to move forward on an actual product in
commerce,” the trademark registration will not issue.
Id. at 1377. Here, SCAD proffered no evidence that it
sold apparel bearing its mark at the time of its federal
service mark registration. Therefore, it could not have
obtained a trademark registration for apparel.

35
Further, under the Lanham Act, an applicant
cannot obtain a registration unless it is the first to use
the mark with the designated goods or services. 15
U.S.C. § 1052(d). This is because “[t]he common law
and the Lanham Act require that trademark ownership
be accorded to the first bona fide user.” HydroDynamics, Inc. v. George Putnam & Co., 811 F.2d 1470,
1472 (Fed. Cir. 1987). SCAD also proffered no evidence
that it sold apparel before Sportswear, and for this
reason as well it could not have obtained a trademark
registration for apparel.
Yet, the effect of the Eleventh Circuit’s first
decision was to put SCAD into the exact position it
would have occupied in litigation if it did obtain a
registration on apparel. The Eleventh Circuit held that
SCAD’s mark had unrestricted scope. To be sure, the
Eleventh Circuit remanded for a likelihood-of-confusion
determination—but
a
likelihood-of-confusion
determination would have been necessary even if
SCAD had obtained a registration on apparel. Hence,
the narrow scope of SCAD’s federal registration had no
effect whatsoever on the practical scope of SCAD’s
litigation rights.
If the Eleventh Circuit’s decision stands, then
disparate interpretations of the Lanham Act are
applied to the exact same mark. When an applicant
seeks to register a mark in the Patent and Trademark
Office, that Office—bound by the Federal Circuit’s
precedents—will permit registration of a mark for a
good or service only if the applicant proves it is using
that mark with respect to that particular good or
service, and only if others have not previously used

36
that mark with a similar good or service. Yet, under
the Eleventh Circuit’s first holding, the scope of that
very mark extends to all goods and services.
The far-reaching effect of that decision might have
been mitigated if the Eleventh Circuit had conducted a
proper likelihood-of-confusion analysis. But it did not:
Under the Eleventh Circuit’s second holding, a plaintiff
can establish a likelihood of confusion merely by
showing that the mark is printed on any good or
service, irrespective of source confusion.
The result of these two holdings will be a kind of
regulatory arbitrage, where applicants can exploit
different rules in different circuits. An applicant can
persuade the Patent and Trademark Office to register a
service mark based on a very narrow service offering.
Armed with that federal registration, the applicant can
then file suit in a district court within the Eleventh
Circuit, and extend the scope of such mark to goods on
which it never used the mark and goods used first by
others with that same mark—even though if it had
tried to obtain such protection from the Patent and
Trademark Office directly, it would have utterly failed.
That outcome profoundly undermines the national
system of trademark registration.
Further, that outcome would threaten the Lanham
Act’s goal of ensuring national uniformity.
The
Lanham Act was enacted in order to create “uniform
legal rights and remedies that were appropriate for a
national economy.” Two Pesos, 505 U.S. at 782
(Stevens, J., concurring in judgment). “Although the
protection of trademarks had once been ‘entirely a
State matter,’ the result of such a piecemeal approach

37
was that there were almost ‘as many different varieties
of common law as there are States’ so that a person’s
right to a trademark ‘in one State may differ widely
from the rights which [that person] enjoys in another.’”
Id. (quoting H.R. Rep. No. 76-944, at 4 (1939)
(alteration in original)). The Lanham Act fixed that
problem by creating “national legislation along national
lines [to] secur[e] to the owners of trademarks in
interstate commerce definite rights.” Id. (quoting H.R.
Rep. No. 76-944, at 4 (1939) (alteration in original)).
The decision below undermines that goal by
establishing different trademark rules in different
circuits—thus creating an incentive for sellers of goods
to sell in some states but not others. In Lanham Act
cases, venue is proper at any location where an
infringing item is sold. See Woodke v. Dahm, 70 F.3d
983, 985 (8th Cir. 1995) (“The place where the alleged
passing off occurred therefore provides an obviously
correct venue.”).
Mail-order companies like
Sportswear therefore have a powerful incentive to
withhold sales from customers within the Eleventh
Circuit—an outcome utterly contrary to the Lanham
Act’s goal of facilitating interstate commerce via a
single national rule. And for mail-order companies with
national operations, prospective plaintiffs can forumshop, selecting courts within the Eleventh Circuit so
they can exploit the Eleventh Circuit’s two decisions in
this case.
In view of the conflict between the Eleventh Circuit
and Federal Circuit, and the practical problems that
conflict will generate, this Court’s review is warranted.

38
CONCLUSION
The petition for a writ of certiorari should be
granted.
Respectfully submitted,
LESLIE C. VANDER GRIEND
JOSHUA D. HARMS
STOKES LAWRENCE, P.S.
1420 Fifth Avenue
Suite 3000
Seattle, WA 98101
lcv@stokeslaw.com
jdh@stokeslaw.com

ADAM G. UNIKOWSKY
Counsel of Record
JENNER & BLOCK LLP
1099 New York Ave., NW,
Suite 900
Washington, DC 20001
(202) 639-6000
aunikowsky@jenner.com

APPENDIX

Appendix A
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
No. 19-11258
_______________
D.C. Docket No. 1:14-cv-02288-TWT
_______________
SAVANNAH COLLEGE OF ART
AND DESIGN, INC.
Plaintiff-Appellee,
Versus
SPORTSWEAR, INC., d.b.a. PrepSportswear,
Defendant-Appellant.
Appeal from the United States District Court
For the Northern District of Georgia
_______________
(December 22, 2020)
_______________
Before WILLIAM PRYOR, Chief Judge,
*
ROSENBAUM, Circuit Judge, and MOORE ,
District Judge.
*

Honorable K. Michael Moore, Chief United States District Judge
for the Southern District of Florida, sitting by designation.

2a
As a student struggling in 1971 to afford art classes
at Portland State University, Carolyn Davidson did not
say “no” when a businessman offered to pay her to
come up with a logo design for his company. She drew
a few different designs on tissue paper, and the
businessman selected one. From these humble origins,
Davidson’s design became the globally recognized Nike
Swoosh.1
Successful logos and design marks are lucrative—
their recognition can instantly ignite an emotional
2
connection with the associated brand. And this is
especially true for colleges, where sentimentality and
pride create great demand for products emblazoned
with schools’ word and design marks—so much so that

1

Carolyn Davidson, How a College Student created One of Sport’s
Most Iconic Images, ABC News, (June 17, 2016, 4:57 PM),
https://abcnews.go.com/Sports/College-student-createdsporticonic-images/story?id=39945185 (last visited Dec. 21, 2020).
Davidson charged only $35 for her first deal with the shoe
company now valued in the billions. Twelve years later, in 1983,
Nike also gave her a gold ring in the shape of the Swoosh with a
diamond in it and shares of Like stock (not to mention chocolate
dessert Swooshes). Id.
2

When Tropicana briefly dropped its iconic green-and-goldlettering and orange-with-a-protruding-straw design marks for
plain font appearing next to a glass of orange juice, the Tropicana
Pure Premium line experienced a 20% drop in sales in less than
two months. Sarah Shearman, Five Brand Logoi Redesigns that
Misfired and How to Deal with the Blacklash, The Guardian, (Aug.
1, 2014), https://www.theguardian.com/media-network/medianetwork-blog/2014/aug/01brand-logo-redesign-airbnb-foursquare.
That was apparently enough to convince Tropicana to return to its
former design marks. See id.

3a
an entire industry has grown up around producing logo
products for schools, colleges, and universities.
Plaintiff-Appellee Savannah College of Art and
Design, Inc. (“SCAD”), and Defendant-Appellant
Sportswear, Inc. (“Sportswear”), are now before us a
second time on the merits in a dispute over
Sportswear’s use of the college’s word marks “SCAD”
and “SAVANNAH COLLEGE OF ART AND
DESIGN” and the college’s design mark that includes
its mascot, Art the Bee.
SCAD did not authorize Sportswear to use its
marks to sell products inscribed with SCAD’s name and
mascot. Upon discovery of Sportswear’s offerings,
SCAD sued Sportswear for trademark infringement,
unfair competition, false designation of origin, and
counterfeiting under the Lanham Act, and for unfair
competition and trademark infringement under Georgia
common law.
On the first trip to this Court, SCAD appealed, and
we considered the district court’s grant of summary
judgment to Sportswear on all counts. We reversed,
holding that our precedent required us to conclude that
SCAD enjoyed enforceable trademark rights in the
3
marks Sportswear used. We remanded to the district
court to determine, in the first instance, whether
Sportswear’s uses of the marks were likely to cause
3

An infringement claim requires demonstration “(1) that the
plaintiff had enforceable trademark rights in the mark or name,
and (2) that the defendant made unauthorized use of the mark or
name such that consumers were likely to confuse the two.” See
Custom Mfg. & Eng’g, Inc. v. Midway Servs., Inc., 508 F.3d 641,
647 (11th Cir. 2007) (citation and internal quotation marks
omitted).

4a
consumer confusion. Savannah College of Art &
Design, Inc. v. Sportswear, Inc., 872 F.3d 1256, 1264,
1265 (11th Cir. 2017) (“SCAD I”).
On remand, the district court concluded they were.
Having previously dismissed SCAD’s counterfeit claim,
the district court granted summary judgment to SCAD
on its remaining three counts—two claims under the
Lanham Act and one claim under Georgia law—and
permanently enjoined Sportswear from selling
products bearing the SCAD marks at issue. Now, on
this case’s second merits trip to this Court, Sportswear
appeals the district court’s decision. After careful
consideration, we affirm.
I.

Factual Background

We begin with a summary of the underlying facts of
4
this case. SCAD, based in Georgia, is a private, nonprofit college founded in 1978. It provides educational
services to more than 11,000 students from more than
100 countries, including the United States. SCAD is
principally known for specialized art programs in areas
like painting, sculpture, architecture, fashion,
photography, film, and design.
Beyond SCAD’s
educational programs, SCAD’s athletic teams compete
in a variety of intercollegiate sports.

4

The facts are outlined in more detail in SCAD I, 872 F.3d at 125960, including specific circumstances surrounding the marks’
registrations and incontestable status. For reasons we discuss
below in Section IV, we do not reach the legal arguments
regarding the significance of the marks’ incontestable status, so we
need not recount those details here.

5a
This case concerns two word marks and one design
mark that SCAD has used to market and promote its
educational programs and services, as well as its
athletic teams:

SCAD has used the two word marks—“SCAD” and
“SAVANNAH
COLLEGE
OF
ART
AND
DESIGN”—since 1979.
As for the design mark
containing SCAD’s mascot, “Art the Bee,” SCAD
began using that in 2001, after having used variations
5
of the bee portion since 1996.
Sportswear operates an online business that
markets and sells “fan” apparel and other items, such
as t-shirts, sweatshirts, baseball caps, and duffel bags.
Although Sportswear began selling apparel for
kindergartens, grade schools, and high schools in 2003,
it currently offers made-to-order apparel and related
goods for other entities, including colleges, Greek and
military organizations, golf courses, professional sports
teams, and even fantasy sports teams. Sportswear
sells some of its goods with licensing agreements and
others—such as the goods bearing SCAD’s marks—
without.
5

The design mark, as shown above, consists of an image of SCAD’s
mascot, “Art the Bee,” in the middle of a circle containing the
words “SAVANNAH COLLEGE OF ART AND DESIGN” and
“BEES.” In this opinion, we refer to this design mark as the “Bee
Design Mark.”

6a
In August 2009, Sportswear sold its first
merchandise bearing SCAD’s marks.
But SCAD
remained unaware of Sportswear’s unauthorized use of
its marks on products until February 2014, when a
parent of a student-athlete forwarded Sportswear’s
website to one of SCAD’s coaches. SCAD filed this
case in July 2014, and Sportswear then stopped selling
the unlicensed merchandise with SCAD’s marks in its
online “Savannah College of Art and Design Bees”
store.
Before then, though, Sportswear undeniably
marketed and sold products with both of SCAD’s word
marks, “SCAD” and “Savannah College of Art and
Design.” And while it did not use the Bee Design Mark
in its full depiction, Sportswear’s online store did offer
apparel imprinted with SCAD’s “Art the Bee” mascot,
a prominent feature in the Bee Design Mark.
Sportswear’s website contained several disclaimers
that the clothing was not sponsored, endorsed by, or
affiliated with SCAD and that all products were
exclusively produced and fulfilled by Sportswear.
Similarly, Sportswear’s website, advertising material,
and packaging material did not indicate that any of the
merchandise constituted official SCAD products or
were endorsed by SCAD. Finally, we note that several
other third-party online retailers besides Sportswear
printed SCAD’s word marks on apparel.
II.

Procedural Background

Based on these facts, SCAD sued Sportswear under
the Lanham Act for claims of trademark infringement,
unfair competition and false designation of origin, and
counterfeiting, and under Georgia common law for
unfair competition and trademark infringement.

7a
Sportswear moved for summary judgment, and the
district court granted its motion. SCAD appealed.
That brings us to SCAD I, Savannah College of Art
& Design, Inc. v. Sportswear, Inc., 872 F.3d 1256 (11th
Cir. 2017). In SCAD I, we reversed the district court’s
grant of summary judgment in favor of Sportswear. We
explained that SCAD’s claims for trademark
infringement under § 32(a) of the Act, codified at 15
U.S.C. § 1114(1)(a), and for unfair competition and false
designation of origin under § 43(a), codified at 15 U.S.C.
§ 1125(a), required SCAD to establish two things.
First, SCAD needed to show enforceable trademark
rights in its marks used by Sportswear. Id. at 1261.
And second, it had to prove that Sportswear’s
unauthorized use of its marks was likely to confuse
consumers. Id.
With respect to the first requirement, we concluded
that the district court had applied an erroneous
standard in limiting the reach of SCAD’s service-mark
rights from extending to goods. Id. at 1260, 1262.
Under our binding precedent, we said, SCAD’s
enforceable service-mark rights for educational
“services” could also cover “goods” in the form of the
apparel Sportswear sold. Id. at 1262–64 (relying on
Boston Prof’l Hockey Ass’n, Inc. v. Dallas Cap &
6
Emblem Mfg., Inc., 510 F.2d 1004 (5th Cir. 1975)).
Then we turned to the second inquiry: likelihood of
confusion.
Because the district court had not
6

See Bonner v. City of Prichard, 661 F.2d 1206, 1207 (11th Cir.
1981) (en banc) (holding that all decisions of the “old Fifth” Circuit
handed down prior to the close of business on September 30, 1981,
are binding precedent in the Eleventh Circuit).

8a
previously had the opportunity to assess the likelihood
of confusion, we remanded the matter and directed the
district court to assess in the first instance whether
Sportswear’s use of SCAD’s service marks in
Sportswear’s apparel was likely to cause confusion. Id.
at 1264. To evaluate this, we instructed the district
court to consider the following seven factors: the
strength of SCAD’s marks; the similarity between
SCAD’s
and
Sportswear’s
marks,
between
Sportswear’s goods and SCAD’s services represented
by the marks, between the parties’ trade channels and
customers, and between the advertising media used by
the parties; Sportswear’s intent; and the existence of
any actual consumer confusion. Id. (citing Fla. Int’l
Univ. Bd. of Trustees v. Fla. Nat’l Univ., Inc., 830 F.3d
7
1242, 1255 (11th Cir. 2016)).
Following remand, the parties filed letter briefs
with the district court and responses thereto,
addressing the likelihood-of-confusion issue and
asserting that the record was complete and that no
disputes of fact remained for trial. The court then once
again took under advisement the parties’ previously
filed cross-motions for summary judgment, this time
applying our guidance in SCAD I.
After consideration, the district court entered an
order granting in part Sportswear’s motion for
8
summary judgment and granting SCAD’s motion for
7

Before the case returned to the district court, Sportswear
unsuccessfully sought a writ of certiorari to the United States
Supreme Court. Sportswear, Inc. v. Savannah Coll. Of Art &
Design, Inc., 139 S. Ct. 57 (2018).
8

The district court ruled on two issues that are not subject to this
appeal. It granted Sportswear’s motion for summary judgment on

9a
summary judgment on the trademark-infringement,
unfair-competition,
and
false-designation-of-origin
claims.
Based on this ruling, the district court
ultimately entered permanent injunctive relief for
SCAD against Sportswear. In particular, the court
enjoined Sportswear from using in any way the three
SCAD marks at issue in this case. It further ordered
Sportswear to delete all references to the three SCAD
marks from its websites and databases. Finally, the
court directed that any sales or shipments in the
continental United States by Sportswear of products
bearing the SCAD marks, without SCAD’s prior
written consent “shall be deemed a presumptive
violation” of the injunction.
Sportswear appeals.
III.

Standard of Review

We review de novo the district court’s grant of
summary judgment. Code Revision Comm’n for Gen.
Assembly of Ga. v. Public.Resource.Org, Inc., 906 F.3d
1229, 1235 (11th Cir. 2018). In so doing, we apply the
same standards that bound the district court. Id. We
view the record and draw all factual inferences in the
light most favorable to the non-movant—here,
Sportswear. SCAD I, 872 F.3d at 1260. Summary
judgment is proper if the movant demonstrates that no
genuine dispute of any material fact exists and the
SCAD’s claims for infringement of the “shield design mark”
because SCAD offered no proof that Sportswear has ever used the
image. And to the extent that SCAD sought to hold Sportswear
liable for its use of the words in the shield design, the district court
noted that SCAD’s other counts already covered that. The district
court also denied Sportswear’s motion for summary judgment on
the defense of functionality.

10a
movant is entitled to judgment as a matter of law. Fed.
R. Civ. P. 56(a).
We may affirm a district-court judgment on any
ground supported in the record, even if the district
court did not specifically address it. Wetherbee v. S.
Co., 754 F.3d 901, 905 (11th Cir. 2014).
IV.

Discussion

We conclude that our trademark precedents of
9
Boston Hockey, Laite, and SCAD I require affirmance
of the district court’s judgment. Our mandate in SCAD
I directed the district court to “assess the strength of
SCAD’s word marks” and to “consider whether SCAD
has demonstrated that Sportswear’s use of its word
marks is likely to create consumer confusion as to
origin, source, approval, affiliation, association, or
sponsorship.” 872 F.3d at 1264. The district court
complied, and we see no error in its determination.
1. Likelihood-of-Confusion Framework
In this Circuit, we consider seven factors when we
analyze whether a likelihood of confusion exists
between two marks:
(1) strength of the mark alleged to have been
infringed; (2) similarity of the infringed and
infringing marks; (3) similarity between the
goods and services offered under the two marks;
(4) similarity of the actual sales methods used by
the holders of the marks, such as their sales
outlets and customer base; (5) similarity of
advertising methods; (6) intent of the alleged
9

Univ. of Ga. Ath. Ass’n v. Laite, 756 F.2d 1535 (11th Cir. 1985).

11a
infringer to misappropriate the proprietor’s good
will; and (7) the existence and extent of actual
confusion in the consuming public.
Sovereign Military Hospitaller Order of Saint John of
Jerusalem of Rhodes & of Malta v. Florida Priory of
the Knights Hospitallers of the Sovereign Order of
Saint John of Jerusalem, Knights of Malta, The
Ecumenical Order, 809 F.3d 1171, 1181 (11th Cir. 2015)
(quoting Tana v. Dantanna’s, 611 F.3d 767, 774–75
(11th Cir. 2010)). The district court need not consider
all factors in every case. Id. But we have said that “the
type of mark and the evidence of actual confusion are
the most important” of all the factors. Fla. Int’l Univ.
Bd. of Trustees v. Fla. Nat’l Univ., Inc., 830 F.3d 1242,
1255 (11th Cir. 2016).
On the other hand, in cases where the concern for
confusion does not arise from the defendant’s unfair
competition with the plaintiff’s products, but rather
from “the defendant’s misuse of the plaintiff’s
reputation and good will as embodied in the plaintiff’s
mark,” we discount certain likelihood-of-confusion
factors. Laite, 756 F.2d at 1547. In particular, we have
held that the three factors of similarity of product,
identity of retail outlets and purchasers, and identity of
advertising media utilized are less relevant in these
types of cases. Id. So their absence “does not
undermine the district court’s finding of a ‘likelihood of
confusion.’ ” Id.
In line with the reasoning we expressed in Laite,
our instructions in SCAD I to address the likelihood-ofconfusion analysis focused on confusion over “origin,
source,
approval,
affiliation,
association,
or
sponsorship.” 872 F.3d at 1264. These considerations

12a
directly relate to the misuse of SCAD’s “reputation and
good will as embodied in [its] mark[s].” Laite, 756 F.2d
at 1547.
On review of a district court’s grant of summary
judgment on a likelihood-of-confusion analysis, “[t]he
real question is whether the court’s ultimate
determination about the ‘likelihood of confusion’ was
correct.” Sovereign Military, 809 F.3d at 1181 (11th
Cir. 2015) (citation and internal quotation marks
omitted). And while generally likelihood of confusion
raises a question of fact, when appropriate, it may be
determined as a matter of law. Alliance Metals, Inc., of
Atlanta v. Hinely Indus., Inc., 222 F.3d 895, 907 (11th
Cir. 2000).
We decide each case on its own merits, determining
whether the plaintiff has satisfied the threshold for
evidence of confusion based on the circumstances of the
particular case. See Lone Star Steakhouse & Saloon,
Inc. v. Longhorn Steaks, Inc., 122 F.3d 1379, 1382 (11th
Cir. 1997).
When we analyze the likelihood of
confusion, we are mindful that “sophisticated
consumers” of complex goods or services “are less
likely to be confused than casual purchasers of small
items.” Fla. Int’l Univ., 830 F.3d at 1256 (citation and
internal quotation marks omitted). We accord weight
to the individual likelihood-of-confusion factors based
on what the situation calls for and do not simply
calculate the number of factors favoring such a
conclusion and the number of factors militating against
it. See Jellibeans, Inc. v. Skating Clubs of Ga., Inc., 716
F.2d 833, 840 n.17 (11th Cir. 1983).

13a
In reviewing the likelihood-of-confusion factors
here, we begin with SCAD’s word marks and then
move on to its Bee Design Mark.
2. SCAD’s Word Marks
a. Strength of the Marks
On the issue of the strength of SCAD’s word marks
(“SCAD” and “Savannah College of Art and Design”), it
is undisputed that both service marks hold
incontestable status. But as we have noted above, see
supra at n.10, on this record we do not rely on the
Dieter presumption to conclude that SCAD’s word
marks are strong under these facts.
Instead, we consider the strength of the mark under
our traditional analysis. Our Circuit recognizes four
categories of a mark’s distinctiveness, listed in
ascending order of strength:
(1) generic—marks that suggest the basic nature
of the product or service; (2) descriptive—marks
that identify the characteristic or quality of a
product or service; (3) suggestive—marks that
suggest characteristics of the product or service
and require an effort of the imagination by the
consumer in order to be understood as
descriptive; and (4) arbitrary or fanciful—marks
that bear no relationship to the product or
service, and the strongest category of
trademarks.
Gift of Learning Found., Inc. v. TGC, Inc., 329 F.3d
792, 797–98 (11th Cir. 2003). We have explained that
we view the last two categories of marks—suggestive
and arbitrary or fanciful—as “inherently distinctive.”

14a
Tana, 611 F.3d at 774 (citation and internal quotation
marks omitted). These are marks whose “intrinsic
nature serves to identify a particular source of a
product.” Id. (citation and internal quotation marks
omitted). At the other end of the spectrum, generic
marks, which cannot be registered as trademarks
under the Lanham Act, generally cannot receive
trademark protection. Id.
Descriptive marks fall between these two extremes.
Although they are not inherently distinctive like
suggestive and arbitrary or fanciful marks, descriptive
marks nonetheless may become distinctive enough to
enjoy trademark protection if they acquire “secondary
meaning.” Id.; 15 U.S.C. § 1052(f). Secondary meaning
develops when the consuming public primarily
associates a name with the producer, as opposed to the
product. Tana, 611 F.3d at 774. Ultimately, the
strength or distinctiveness of the trademark or service
mark corresponds directly with the scope of protection
it receives. Welding Servs., Inc. v. Forman, 509 F.3d
1351, 1361 (11th Cir. 2007).
SCAD’s word marks have acquired significant
strength through the more than four decades of their
use and through SCAD’s investment in goodwill. At
the time the parties filed their cross-motions for
summary judgment, SCAD enrolled over 11,000
students, and now its enrollment numbers thousands
more than that. It is among the leading institutions for
creative professionals, with several programs honored
as the best in the nation. Not only that, but SCAD also
has nationally ranked athletic teams. As a consequence
of that growth in goodwill and reputation since 1978,
SCAD enjoys a worldwide reach of students and
alumni, as well as other supporters, who recognize its

15a
marks. And beyond academics and athletics, SCAD
coordinates other events throughout the year that
draw tens of thousands of attendees.
These unrebutted facts support the conclusion that
SCAD’s word marks have acquired strength through
the promotional efforts of SCAD and its network of
connections. See John H. Harland Co. v. Clarke
Checks, Inc., 711 F.2d 966, 974 n.13 (11th Cir. 1983).
Even words that could be considered weak, such as
geographical terms, can acquire secondary meaning and
be afforded protection for that secondary meaning. See
also Cont’l Motors Corp. v. Cont’l Aviation Corp., 375
F.2d 857, 861 (5th Cir. 1967) (“Protection is warranted
on what it has come to signify regardless of any original
weakness, actual or supposed.”).
Sportswear attempts to rebut any strength of
SCAD’s word marks by pointing to three other thirdparty apparel manufacturers who have used the marks.
Sportswear is correct that, as a general matter, thirdparty use has the potential to weaken a finding of a
mark’s strength. See Fla. Int’l Univ., 830 F.3d at 1257
(“Thus, the number of third-party users is important,
but there is no hard-and-fast rule establishing a single
number that suffices to weaken a mark.” (citation and
internal quotation marks omitted)). Indeed, when
extensive third-party use has occurred, that diminishes
a mark’s strength. Id. at 1257–58 (finding twelve thirdparty uses sufficient to diminish); AmBrit, Inc. v. Kraft,
Inc., 812 F.2d 1531, 1539 (11th Cir. 1986) (affording
lesser protection where eight third-party users
employed similar trade dress); El Chico, Inc. v. El
Chico Cafe, 214 F.2d 721, 725 (5th Cir. 1954)
(concluding “El Chico” trademark was “weak” in light

16a
of registrations of the name and similar names by
twenty-seven third parties).
But here, Sportswear has identified only three
third-party usages of SCAD’s marks—significantly
fewer than we have previously relied on in finding a
mark’s
strength
to
be
materially
diluted.
“[C]ommercial strength measures the marketplace’s
recognition value of the mark.” Fla. Int’l Univ., 830
F.3d at 1258. And as we have explained, SCAD’s word
marks here developed substantial strength over
SCAD’s forty years of existence, because of the size
and reach of its student body, its alumni network, and
its programs.
Under these circumstances, even
viewing the facts in the light most favorable to
Sportswear, we cannot conclude that Sportswear has
shown that the three third-party uses diminished the
strength of SCAD’s word marks by more than any
negligible amount.
Nor can Sportswear contend persuasively that the
SCAD marks are weak. On the contrary, it strains
credulity for Sportswear to argue against the strength
of SCAD’s marks when Sportswear offered and sold
merchandise with those identical word marks to obtain
a profit from its consumers. If the marks had no
strength, consumers would not purchase attire
imprinted with them in the first place, and Sportswear
would have no reason to offer for sale products bearing
the marks. We have recognized this concept in our
precedent that proof of intentional copying is probative
on the secondary-meaning analysis. See Brooks Shoe
Mfg. Co. v. Suave Shoe Corp., 716 F.2d 854, 860 (11th
Cir. 1983).

17a
In sum, the strength factor favors SCAD, as the
district court correctly concluded, even without
reliance on the Dieter presumption.
b. Similarity Between the Infringed
and Infringing Marks
We evaluate similarity by accounting for “the
overall impression created by the marks.” Jellibeans,
716 F.2d at 842. Here, Sportswear undoubtedly used
similar marks to SCAD’s word marks. In fact, they
were not just similar, but identical, as the record shows
that Sportswear used SCAD’s two word marks on its
apparel, as well as the Art the Bee design with other
SCAD marks. So this factor weighs in SCAD’s favor as
well, as the district court correctly concluded.
c. Similarity of Goods or Services
The similarity-of-goods factor assesses “whether
the goods are so related in the minds of consumers that
they get the sense that a single producer is likely to put
out both goods.” Frehling Enters., Inc. v. Int’l Select
Grp., Inc., 192 F.3d 1330, 1338 (11th Cir. 1999); see also
PlayNation Play Sys., Inc. v. Velex Corp., 924 F.3d
1159, 1168 (11th Cir. 2019).
In Laite, as we have highlighted, we noted that this
factor is less important in cases—like this one—that
concern the use of the plaintiff’s service marks on the
defendant’s goods for the very reason that the
plaintiff’s marks embody the plaintiff’s goodwill and
reputation. See Laite, 756 F.2d at 1547. So the district
court did not err in giving the factor little significance.

18a
d. Similarity of Actual Sales Methods
The
similarity-of-actual-sales-methods
factor
contemplates the similarity of the parties’ customer
bases. See Sovereign Military, 809 F.3d at 1181. Here,
the parties’ customer bases overlap, as the target
customers for Sportswear’s apparel goods bearing
SCAD’s word marks are the same as those of SCAD’s
educational services—namely, its current students and
their parents, its alumni and faculty, and fans of its
athletic teams. This factor therefore weighs in favor of
SCAD. Nevertheless, since Laite instructs that this
factor bears less (if any) weight in cases like this one
(where the defendant seeks to trade off the plaintiff’s
goodwill and reputation, as opposed to its products), its
weight is not much. See Laite, 756 F.2d at 1547.
e. Similarity of Advertising Methods
The similarity of advertising methods is the third
factor that Laite holds is less important to the
likelihood-of-confusion analysis in a case like this one.
See Laite, 756 F.2d at 1547. We conclude that the
district court did not err in finding this factor neutral.
As the district court noted, although both parties
advertise over the internet, “[t]hat the goods or
services of the parties are both found on the Internet
proves little, if anything, about the likelihood that
consumers will confuse similar marks used on such
goods or services.” 4 McCarthy on Trademarks and
Unfair Competition § 24:53.50 (5th ed.).
f. Sportswear’s Intent to
Misappropriate SCAD’s Goodwill
Next up, we consider Sportswear’s intent to
misappropriate SCAD’s goodwill. Sportswear relies on

19a
its use of website disclaimers to negate any finding of
intent to confuse consumers. Intent may be proven by
circumstantial evidence. Jellibeans, 716 F.2d at 843.
The district court, relying on Babbit Electronics, Inc. v.
Dynascan Corp., 38 F.3d 1161, 1179 (11th Cir. 1994),
reasoned that intent to copy in itself can create a
rebuttable presumption of the likelihood of confusion.
But the district court ended its analysis there, noting
that SCAD had not argued for such a presumption, yet
concluding that the factor favored SCAD.
Babbit certainly supports the notion that, as a
matter of law, courts may find a likelihood of confusion
“if the defendant intended to derive benefit from the
plaintiff’s trademark.” 38 F.3d at 1179. And where a
party copies a mark “with the intent that the public
recognize and purchase the emblems as the symbol of
the” mark holder, intent likewise can be found. Boston
Hockey, 510 F.2d at 1012.
This is equally true when the defendant intends to
derive a benefit from the good will of the mark holder.
See John H. Harland Co., 711 F.2d at 977 (“In this case,
there is some evidence from which the jury might have
inferred that Clarke adopted the Entry Stub mark in
order to appropriate some of the good will associated
with Harland’s Memory Stub mark. Clarke was well
aware of the success of Harland’s Memory Stub
product.”); AmBrit, 812 F.2d at 1542 (“[A] finding that
Kraft adopted the trade dress with the intent of
deriving benefit from the reputation of Isaly’s
Klondike may alone be enough to justify the inference
that there is confusing similarity.”); see also AmBrit,
812 F.2d at 1543 (“Although Kraft was free to copy the
Klondike product and the functional packaging features
of that product, the finder of fact may infer from

20a
evidence of such actions an intent to derive benefit
from Isaly’s goodwill.”).
Nevertheless, we have observed that mere evidence
of intentional copying—in the absence of any other
evidence—does not conclusively establish a likelihood
of confusion.
Yellowfin Yachts, Inc. v. Barker
Boatworks, LLC, 898 F.3d 1279, 1293 (11th Cir. 2018).
Rather, the plaintiff must also present some evidence
indicating that the defendant copied the marks with the
intent to confuse customers. Id. at 1294 (finding the
district court properly concluded plaintiff put forth no
evidence showing intent to copy “in order to deceive
consumers as to the source of [the] boats” and “cause
consumer confusion”); see id. at 1293 (“There is a
difference between intentional copying and intentional
copying with the intent to cause confusion.” (emphasis
in original)); see also Jellibeans, 716 F.2d at 843
(circumstantial
evidence,
including
testimony,
supported finding of intent to confuse roller-skaters).
The very nature of school memorabilia relies upon
the goodwill, reputation, and affiliation people associate
with that school.
So it is not surprising that
Sportswear even admits on appeal that customers visit
its website to “create apparel bearing the name of the
school, team, or organization with which they desire to
express affiliation.” Cognizant of the intuitive link
between school merchandise and sponsorship,
Sportswear cannot reasonably argue against a finding
of intent here.
Nor can Sportswear rely on its website disclaimers
to completely negate any finding of intent. To be sure,
Sportswear’s website
bears these prominent
disclaimers: “This store is not sponsored or endorsed

21a
by Savannah College of Art and Design” and “This
store is not affiliated with, sponsored or endorsed by
Savannah College of Art and Design. All products in
this store are produced and fulfilled by Prep
Sportswear.” And Sportswear urges the Court to
distinguish our holdings on the insufficiency of product
disclaimers in Boston Hockey and Laite and instead
rely on the finding of successful website disclaimers in
the District of Maryland and the Northern District of
Georgia. But while Sportswear correctly notes that the
disclaimers in Boston Hockey and Laite did not involve
websites, but rather disclaimers on physical products,
we are nonetheless guided by those holdings here.
In Boston Hockey, we considered the unauthorized
manufacturing and sale of National Hockey League
embroidered cloth emblems, which “were substantial
duplications of the marks,” and which the defendant
reproduced with the intention that consumers
recognize the hockey-team symbols and purchase them
for that reason. 510 F.2d at 1009. After we addressed
the Lanham Act claims, we considered and rejected the
idea that the common-law unfair competition claim
could be rendered fair with a disclaimer. We said, “The
exact duplication of the symbol and the sale as the
team’s emblem satisfying the confusion requirement of
the law, words which indicate it was not authorized by
the trademark owner are insufficient to remedy the
illegal confusion. Only a prohibition of the unauthorized
use will sufficiently remedy the wrong.” Id. at 1013.
Similarly, in Laite, the defendant, a wholesaler of
novelty beers, began marketing “Battlin’ Bulldog
Beer,” which the district court found caused a
likelihood of confusion with the University of Georgia
Bulldog. 756 F.2d at 1537. The beer wholesaler

22a
argued, among other things, on appeal that no
confusion from the sale of “Battlin’ Bulldog Beer” could
occur because each can contained a disclaimer that the
beer was “[n]ot associated with the University of
Georgia.” Id. at 1547. We soundly rejected that
argument and held that the disclaimer was insufficient
to negate confusion—both because the disclaimer was
inconspicuous on the individual cans and because
Boston Hockey required us to conclude that disclaimers
noting that a product is not authorized by a trademark
owner are insufficient to remedy the consumer’s
confusion. Id. (citing Boston Hockey, 510 F.2d at 1013).
So as in SCAD I, Boston Hockey and its progeny
control our analysis here—this time on the disclaimer
issue—and they require us to find that the intent factor
does not favor Sportswear. Perhaps the website
disclaimers here may be viewed as negating some of
Sportswear’s intent. But even if they are, like the
disclaimers in Boston Hockey and Laite, they are
insufficient under our binding precedent to totally
negate the confusion. See Boston Hockey, 510 F.2d at
1013.
The record and the nature of this case demonstrate
that companies like Sportswear copy the word marks of
schools like SCAD for application on apparel for the
very reason that SCAD’s goodwill and educational
reputation fundamentally drive the sales. Like the
intended customers in Boston Hockey and Laite, the
customers who purchased Sportswear’s SCAD-branded
merchandise, whether current students and faculty,
alumni, or sports fans, did so because of the
merchandise’s affiliation with the marks and because
what the marks represent are meaningful to buyers.
Indeed, that’s the same reason the Boston Hockey

23a
defendant sold patches bearing the teams’ trademarks:
it hoped to benefit from the patches’ association with
what they represented. See Boston Hockey, 510 F.2d
at 1012. Thus, we conclude that the district court did
not err in finding that this factor favors SCAD.
g. Actual Confusion in the Consuming
Public
While this final actual-confusion factor weighs
heavily in the balance, we have noted that its absence
does not necessarily spell doom for a final finding of a
“likelihood” of confusion under the seven-factor
analysis. E. Remy Martin & Co., S.A. v. Shaw-Ross
Int’l Imports, Inc., 756 F.2d 1525, 1529 (11th Cir. 1985).
“Actual confusion” and “likelihood of confusion” are
demonstrably different concepts. That is especially the
case in smaller markets with cheaper items and
minimal sales. AmBrit, 812 F.2d at 1544. Survey
evidence is similarly unnecessary for a likelihood-ofconfusion finding. See PlayNation, 924 F.3d at 1169
(“Lack of survey evidence does not weigh against the
plaintiff when determining likelihood of confusion.”).
Here, SCAD offers only one piece of evidence to
show actual confusion: a parent of a student sent a link
to Sportswear’s website to one of SCAD’s employees,
and the employees were unsure whether Sportswear’s
use was authorized. This is hardly strong evidence of
actual confusion.
As the district court correctly
concluded, this factor weighs in favor of Sportswear,
but it is not determinative of the issue of likelihood of
confusion under the multifactor analysis. In fact, for
the entirety of the nearly five-year period from August
31, 2009, to July 27, 2014, when Sportswear sold
products bearing SCAD’s marks, the record of total

24a
sales for those products was $23,703.14, with net profits
of $1,896.25. The vast majority of individual sales were
under $100, with a small number reaching into the
$200–$300 range. In other words, this is precisely the
type of case, with a smaller market and inexpensive
goods, in which we have cautioned that weak evidence
of actual consumer confusion is not dispositive. See
AmBrit, 812 F.2d at 1544.
h. Balancing the Seven Factors
Now that we have individually reviewed each of the
seven likelihood-of-confusion factors, we evaluate the
weight of the facts, considering the unique
circumstances of the case. See Lone Star Steakhouse,
122 F.3d at 1382; Jellibeans, 716 F.2d at 840 n.17. In
doing so, we must keep in mind that the strength and
type of the mark and the evidence of actual confusion
are the most important factors. Fla. Int’l Univ., 830
F.3d at 1255.
Of the seven factors, four favor SCAD: the strength
of the mark, the similarity of the infringed and
infringing marks, the similarity of Sportswear’s and
SCAD’s customer base, and the intent of Sportswear to
misappropriate SCAD’s goodwill.
One factor—undoubtedly one of the two most
important ones—favors Sportswear, since the record
contains little evidence of any actual consumer
confusion. But as we just discussed, the relatively low
sales volume, over the five-year period, of items
bearing SCAD’s marks and the relatively inexpensive
nature of the goods further lessen the import of the
actual-confusion factor. See AmBrit, 812 F.2d at 1544.
As we have explained, the likelihood-of-confusion
analysis must be mindful that “casual purchasers of

25a
small items” are more likely to be confused than more
sophisticated consumers of complex goods. See Fla.
Int’l Univ., 830 F.3d at 1256 (citation and internal
quotation marks omitted).
Finally, as we have also described, the remaining
factors are of little relevance here because the concern
for confusion does not arise from Sportswear’s unfair
competition with SCAD’s products, but rather from
Sportswear’s “misuse of the plaintiff’s reputation and
good will as embodied in the plaintiff’s mark.” See
Laite, 756 F.2d at 1547. Given the balance of facts in
this matter, we conclude that the district court
correctly found a likelihood of confusion as to
Sportswear’s use of SCAD’s word marks.
3. The Bee Design Mark
Now we briefly address the parties’ arguments
concerning Art the Bee. First, Sportswear argues that
it cannot be held liable for use of Art the Bee because
SCAD ostensibly abandoned the design mark in 2011.
But since we are reviewing the denial of Sportswear’s
motion for summary judgment on that issue, we must
take the facts in the light most favorable to SCAD.
While Sportswear points to the 2011 memo regarding
non-use of the Art the Bee mark in future athletic
merchandise, SCAD responds with evidence of Art the
Bee’s continued use on athletic apparel. So we cannot
say that Sportswear has shown entitlement as a matter
of law under the stringent, heavy burden for
demonstrating abandonment. See Cumulus Media,
Inc. v. Clear Channel Commc’ns, Inc., 304 F.3d 1167,
1175 (11th Cir. 2002).

26a
Next, Sportswear argues that any claims regarding
its use of Art the Bee are moot, relying on the
cancellation of the design mark in September 2016. A
case becomes moot if “the issues presented are no
longer ‘live’ or the parties lack a legally cognizable
interest in the outcome.” De La Teja v. United States,
321 F.3d 1357, 1362 (11th Cir. 2003) (citation and
internal quotation marks omitted). A court may not
decide a case that has become moot because it no longer
constitutes a “Case” or “Controversy” as Article III of
the Constitution requires, so the court lacks
jurisdiction. BankWest, Inc. v. Baker, 446 F.3d 1358,
1363 (11th Cir. 2006). Rather, Article III’s case-orcontroversy requirement demands a live controversy
throughout all stages of the litigation. Id.
Here, the case is not moot. Though Sportswear
points to SCAD’s cancellation of the Art the Bee design
mark in 2016, all Sportswear’s uses occurred before
that happened—between 2009 and 2014. So to the
extent that Sportswear violated the Bee Design Mark
during that period, SCAD may be entitled to damages,
regardless of its later cancellation of the mark. As a
result, the design-mark claim is not moot.
Sportswear next asserts that it should prevail on
the design-mark issue because the record is devoid of
any evidence that it ever printed products with the Bee
Design Mark. But violating the Bee Design Mark does
not require a verbatim copying of the Bee Design
Mark. Jellibeans, 716 F.2d at 842. Rather, a violation
can occur based on the overall impression of the copy.
Id.
Likewise, any argument by Sportswear that it
cannot infringe SCAD’s Bee Design Mark because it

27a
did not use the identical version of the design
misunderstands the likelihood-of-confusion test, which
does not require the marks to be identical. Rather, the
question is similarity of the marks. And the graphic
Sportswear used for apparel on its website is
materially indistinguishable from the “angry bee”
SCAD used as Art the Bee:

For these reasons, the district court correctly
determined that “uncontroverted evidence” established
that Sportswear had used “the bee portion of the logo
in conjunction with [SCAD’s] text marks.” And the
same analysis we conducted with respect to SCAD’s
word marks applies equally to the Bee Design Mark
here. As a result, the likelihood-of-confusion factors
support the district court’s finding that Sportswear’s
uses of the Bee Design Mark were an infringement.
V.

Conclusion

For the reasons we have explained, the district
court properly entered summary judgment and the
corresponding permanent injunction in favor of SCAD.
We therefore affirm the judgment of the district court.
AFFIRMED.

28a
Appendix B
United States Court of Appeals
Eleventh Circuit.
SAVANNAH COLLEGE OF ART
AND DESIGN, INC.,
Plaintiff-Appellant,
v.
SPORTSWEAR, INC., d.b.a. Prep Sportswear,
Defendant-Appellee.
No. 15-13830
October 3, 2017
Before MARTIN and JORDAN, Circuit Judges,
and COOGLER, District Judge.
Opinion
JORDAN, Circuit Judge:
“Imitation may be the sincerest form of flattery,”
Charles C. Colton, Lacon, Vol. 1, No. 183 (1820–22), in
Bartlett’s Familiar Quotations 393:5 (16th ed. 1992), but
when the imitation consists of commercial reproduction
for profit, all bets are off. So when Sportswear, Inc.
began using the federally-registered service marks of
the Savannah College of Art and Design without a
license to sell apparel and other goods on its website,
SCAD did not take kindly to the copying and sued for
equitable and monetary relief. SCAD asserted a
number of claims against Sportswear, including service
mark infringement under 15 U.S.C. § 1114; unfair
competition and false designation of origin under 15

29a
U.S.C. § 1125; and unfair competition under O.C.G.A. §
10-1-372.
This is SCAD’s appeal from the district court’s
grant of summary judgment in favor of Sportswear.
The district court, relying on Crystal Entertainment &
Filmworks, Inc. v. Jurado, 643 F.3d 1313, 1315–16
(11th Cir. 2011)—a case involving a dispute over
common-law trademark rights to a band name—
concluded that SCAD had failed to establish that it had
enforceable rights in its marks that extended to
apparel. SCAD, which validly registered its marks
only in connection with the provision of “education
services,” did not show that it had used its marks on
apparel earlier than Sportswear in order to claim
common-law ownership (and priority) over its marks
for “goods.” See Savannah Coll. of Art & Design, Inc.
v. Sportswear, Inc., 2015 WL 4626911, at *2 (N.D. Ga.
2015).
We reverse. This case, unlike Jurado, does not
involve the alleged infringement of a common-law
trademark, and as a result the date of SCAD’s first use
of its marks on goods is not determinative. One of our
older trademark cases, Boston Prof’l Hockey Ass’n,
Inc. v. Dallas Cap & Emblem Mfg., Inc., 510 F.2d 1004
(5th Cir. 1975), controls, as it extends protection for
federally-registered service marks to goods. Although
Boston Hockey does not explain how or why this is so,
it constitutes binding precedent that we are bound to
follow.

30a
I

1

Founded in 1978, SCAD is a private, non-profit
college based in Georgia, and provides educational
services to over 11,000 students from across the United
States and more than 100 countries. SCAD is primarily
known for specialized programs related to the arts,
such as painting, sculpture, architecture, fashion,
photography, film, and design. In addition to providing
educational programs, SCAD fields athletic teams in a
variety of sports.
To distinguish itself in the market and promote its
programs and services, SCAD holds four federallyregistered marks:

The federal registrations for these marks were
issued for “education services,” i.e., the provision of
“instruction and training at the undergraduate,
graduate, and post-graduate levels.” See, e.g., D.E. 1-1,
1-2. And the parties agree that SCAD has continuously
used its marks for the promotion of its “education
2
services.”
1

2

Judge Martin joins all except Part IV.C of the opinion.

SCAD may have been able to secure federal trademark
registrations for the use of its word marks on goods such as
apparel, but apparently did not attempt to do so. “There is no
doubt that a given symbol can be used in such a way that it
functions as both a trademark for goods and a service mark for

31a
SCAD has used the two word marks at issue here—
“SCAD” (registered in 2003) and “SAVANNAH
COLLEGE OF ART AND DESIGN” (registered in
2005)—since 1979, and they have now achieved
incontestable status. In general, this means that SCAD
has filed the requisite affidavit of use and
incontestability under 15 U.S.C. § 1065(3), and that the
U.S. Patent and Trademark Office has acknowledged
that these two marks have been validly registered and
in continuous use for at least five years. See D.E. 49-3
at 5, 10, 15, 24.
Sportswear operates entirely online and uses an
interactive website to market and sell “fan” clothing
and items like t-shirts, sweatshirts, baseball caps, and
duffel bags. Sportswear began selling apparel for K-12
schools in 2003, and it now offers made-to-order apparel
and related goods for other entities, including colleges,
Greek and military organizations, golf courses,
professional sports teams, and even fantasy sports
teams with—and without—licensing agreements. To
services, and be the subject of separate registrations.” 3 J. Thomas
McCarthy, McCarthy on Trademarks and Unfair Competition §
19:84 (4th ed. June 2017). See also id. at § 19:87 (“If a service
company (or a producer of goods) puts its mark on promotional
items to be used by recipients, such as ball point pens and wearing
apparel, the mark can be registered for such goods.”); Hans C.
Bick, Inc. v. Watson, 253 F.2d 344, 344 (D.C. Cir. 1958) (discussing
registrations for the word “Nylonized” as a trademark for
women’s nylon hosiery and as a service mark for the application of
a nylon coat); In re McDonald’s Corp., 199 U.S.P.Q. 702, 1978 WL
21263, at *3 (T.T.A.B. 1978) (registering “McDonald’s” and “golden
arches” marks for clothing because they “indicat [e] the source of
origin of the various items of apparel in [the] applicant
[McDonald’s Corporation]”).

32a
purchase an item from Sportswear, a customer is
generally required to select its preferred organization’s
“online store,” choose an item like a t-shirt or hat, and
select that organization’s emblem, mascot, or name.
Sportswear’s website then generates a sample of the
selection, prompts the customer to checkout online, and
ships the final product to the customer’s home in a
package indicating that it was delivered from a
Sportswear facility.
In February of 2014, a parent of a student-athlete
forwarded Sportswear’s website to one of SCAD’s
coaches. As a result, SCAD learned that Sportswear
had been using its word marks on products without
authorization (and without a licensing agreement) since
August of 2009. Seeking to protect its marks from
further unauthorized use, SCAD sued Sportswear in
July of 2014. At that point, Sportswear stopped selling
products with SCAD’s word marks.
During discovery, SCAD provided several examples
of Sportswear’s products featuring its word marks and
a printout of Sportswear’s website-generated “SCAD”
store.
SCAD also submitted images of current
merchandise sold on its own website and side-by-side
comparisons of Sportswear’s products. Sportswear
conceded that it was selling products online with
virtually indistinguishable reproductions of the
“SCAD” and “SAVANNAH COLLEGE OF ART
AND DESIGN” word marks, but asserted that its
website contained a prominent disclaimer showing that
the products were in no way affiliated with the school.
Since 2011, SCAD has licensed Follett Education
Group to operate its online stores and Georgia-based
on-campus bookstores, which sell clothing and other

33a
goods displaying SCAD’s word marks. Sportswear
agreed that Follett markets and sells SCAD’s
merchandise, but contested the degree of SCAD’s
involvement in approving and designing those items.
SCAD admitted that it did not submit evidence
showing when it first used its word marks on apparel or
related goods.
At the close of discovery, the district court
reviewed the parties’ cross-motions for summary
judgment and ruled in favor of Sportswear. Relying on
Jurado, the district court held that SCAD failed to
establish that its service mark rights extended to
apparel because it could not show priority in use as to
goods.
II
We exercise plenary review of the district court’s
grant of summary judgment in favor of Sportswear,
viewing the record and drawing all factual inferences in
the light most favorable to SCAD. See Tana v.
Dantanna’s, 611 F.3d 767, 772 (11th Cir. 2010).
Summary judgment is appropriate when “there is no
genuine dispute as to any material fact” and the moving
party is entitled to judgment as a matter of law. See
Fed. R. Civ. P. 56(a); Celotex Corp. v. Catrett, 477 U.S.
317, 322, 106 S. Ct. 2548, 91 L.Ed.2d 265 (1986).
III
Trademark law, as codified by the Lanham Act, see
15 U.S.C. § 1051 et seq., largely serves two significant
but often conflicting interests. It “secure[s] to the
owner of the mark the goodwill of his business[;]” and it
“protect[s] the ability of consumers to distinguish
among competing producers.” Park ‘N Fly, Inc. v.

34a
Dollar Park & Fly, Inc., 469 U.S. 189, 198, 105 S. Ct.
658, 83 L.Ed.2d 582 (1985).
The Lanham Act prohibits the infringement of
trademarks that are used to identify “goods,” and of
service marks that are used to identify “services.” See
15 U.S.C. § 1127. Trademarks and service marks are
used “to indicate the source of the [goods and services],
even if that source is unknown.” Id. Generally, “a
trademark serves to identify and distinguish the source
and quality of a tangible product,” while “a service
mark functions to identify and distinguish the source
and quality of an intangible service.” 3 McCarthy on
Trademarks § 19:81.
In most respects, the “analysis is the same under
both [types of marks] and courts thus treat the two
terms as interchangeable in adjudicating infringement
claims.” Frehling Enterprises, Inc. v. Int’l Select Grp.,
Inc., 192 F.3d 1330, 1334 n.1 (11th Cir. 1999) (citations
omitted). For both trademarks and service marks,
therefore, the “the touchstone of liability ... is not
simply whether there is unauthorized use of a
protected mark, but whether such use is likely to cause
consumer confusion.” Custom Mfg. & Eng’g, Inc. v.
Midway Servs., Inc., 508 F.3d 641, 647 (11th Cir. 2007).
See also 4 McCarthy on Trademarks § 23:1 (“The test
for infringement of a service mark is identical to the
test of infringement of a trademark: is there a
3
likelihood of confusion?”).
3

Many other circuits also analyze trademarks and service marks
under the same legal standards. See, e.g., Chance v. Pac-Tel
Teletrac Inc., 242 F.3d 1151, 1156 (9th Cir. 2001) (“Service marks
and trademarks are governed by identical standards.”); Circuit
City Stores, Inc. v. CarMax, Inc., 165 F.3d 1047, 1054 (6th Cir.

35a
The Lanham Act provides different types of
statutory protection. As relevant here, § 32(a) of the
Act, codified at 15 U.S.C. § 1114(1)(a), guards against
“infringement”—the “reproduction, counterfeit, copy,
or colorable imitation of a registered mark”—while §
43(a), codified at 15 U.S.C. § 1125(a), protects against
“false designation of origin,” which we have referred to
as “a federal cause of action for unfair competition.”
Custom Mfg., 508 F.3d at 647 (citation omitted). A
claim for infringement under § 1114(1)(a) lies only for
federally-registered marks, while a claim under §
1125(a) is broader and may also be based on
unregistered (i.e., common-law) marks. See Jurado,
643 F.3d at 1320.
The statutory claims at issue here more or less
required SCAD to establish two things. First, SCAD
needed to show “enforceable trademark rights in [a]
mark or name[.]” Second, it had to prove that
Sportswear “made unauthorized use of [its marks] ‘such
that consumers were likely to confuse the two.’ ”
Custom Mfg., 508 F.3d at 647 (describing the
1999) (same); Lane Capital Mgmt., Inc. v. Lane Capital Mgmt.,
Inc., 192 F.3d 337, 344 n.2 (2d Cir. 1999) (same); Walt-West
Enterprises, Inc. v. Gannett Co., Inc., 695 F.2d 1050, 1054 (7th Cir.
1982) (same). This analytical overlap likely contributes to the
uncertainty about the scope of protection afforded to registered
service marks. See generally Paul M. Schoenhard, Why Marks
Have Power Beyond the Rights Conferred: The Conflation of
Trademarks and Service Marks, 87 J. Pat. & Trademark Off. Soc’y
970, 971–72 (2005) (explaining that the two distinct forms of
intellectual property have been treated as the same even though
“service marks did not exist as a protectable form of intellectual
property under [f]ederal law prior to the passage of the [Lanham
Act]”) (emphasis in original).

36a
requirements for a § 1125 claim) (citation omitted);
Dieter v. B & H Indus. of Southwest Florida, Inc., 880
F.2d 322, 326 (11th Cir. 1989) (same for a § 1114 claim).
We, like other circuits, often blur the lines between
§ 1114 claims and § 1125 claims because recovery under
both generally turns on the confusion analysis. See
Tana, 611 F.3d at 773 n.5 (stating that the district
court’s error in analyzing a trademark case under §
1114 rather than § 1125 was irrelevant “because the
district court based its grant of summary judgment on
the likelihood-of-confusion prong”); Tally-Ho, Inc. v.
Coast Community Coll. Dist., 889 F.2d 1018, 1026 n.14
(11th Cir. 1989) (“an unfair competition claim based
only upon alleged trademark infringement is practically
identical to an infringement claim”). Accord Water Pik,
Inc. v. Med-Sys., Inc., 726 F.3d 1136, 1143 (10th Cir.
2013) (explaining that the “central inquiry is the same”
for both § 1114 and § 1125); Louis Vuitton Malletier v.
Dooney & Bourke, Inc., 454 F.3d 108, 114 (2d Cir. 2006)
(same); A & H Sportswear, Inc. v. Victoria’s Secret
Stores, Inc., 237 F.3d 198, 210 (3d Cir. 2000) (same).
The district court here, however, never reached
likelihood of confusion. Under the district court’s
rationale, the infringement claim under § 1114
necessarily failed because the limited federal
registrations for “education services” meant that
SCAD did not have rights as to “goods,” and SCAD did
not provide evidence showing that it used its marks on
4
apparel before Sportswear.

4

Because the district court did not expressly distinguish between
SCAD’s statutory causes of action, we assume that its analysis
applied to both the § 1125 claims.

37a
But the district court’s reliance on Jurado for that
rationale was misplaced. In Jurado neither party had a
federally-registered trademark, see 643 F.3d at 1316,
and as a result both sides could only assert common-law
trademark rights. That is why priority of use became a
critical issue in that case. As we explained: “Commonlaw trademark rights are appropriated only through
actual prior use in commerce.... Crystal [the plaintiff]
bore the burden of proving its prior use.” Id. (citations
and internal quotation marks omitted).
Because
SCAD’s claims revolve around federally-registered
marks, Jurado cannot inform our analysis of the
infringement claim under § 1114, a provision which
requires a federally-registered mark, or under § 1125, a
provision which can apply to a federally-registered
mark.
IV
The question for us is whether SCAD has
enforceable service mark rights that extend—beyond
the services listed in its federal registrations—to goods
in order to satisfy the first prong of an infringement
analysis: the validity and scope of a contested mark. See
Dieter, 880 F.2d at 326 (observing that a plaintiff must
show that a mark is valid before a likelihood of
confusion analysis becomes necessary). As we explain,
we do not write on a clean slate, and Boston Hockey
provides the answer to that question.
A
Before discussing Boston Hockey, we analyze
University of Georgia v. Laite, 756 F.2d 1535 (11th Cir.
1985), a case that SCAD also relies on. SCAD argues
that Laite stands for the principle that even if a mark is
registered only for services, the mark holder is entitled

38a
to broader protection in order to prevent any
infringing conduct that is likely to cause confusion. See
Appellant’s Br. at 17–21. We disagree with SCAD’s
reading of Laite. Although at first glance the facts of
that case closely resemble those here, there is one
significant difference, and SCAD’s argument conflates
the standards for service mark protection under § 1114
and § 1125.
In Laite, the University of Georgia Athletic
Association sued to enjoin a novelty beer wholesaler
from selling “Battlin’ Bulldog” beer. See 756 F.2d at
1537. The UGAA sued the wholesaler under § 1125 and
state trademark law, but it did not (and could not) sue
for infringement under § 1114. See id. at 1538. SCAD
correctly points out that the UGAA had filed state
registrations for its marks only for “athletic services,”
but downplays a significant fact—at the time of the
litigation, it had not yet acquired federal registrations
for the contested “Georgia Bulldog” mark. See id. at
1537 & n.2. Federally-registered marks were not, as
SCAD infers, part of the analytical line up in that case.
The key holding in Laite was that proof of
secondary meaning (i.e., “the power of a name ... to
symbolize a particular business, product, or company”)
is only required for descriptive marks. See id. at 1540
(citation omitted).
Reasoning that the “Georgia
Bulldog” mascot was not a descriptive mark, we
affirmed, on clear error review, the district court’s
finding that the UGAA had established a likelihood of
confusion based on the similarity of the Bulldog designs
and the beer wholesaler’s intent. See id. at 1541, 1543–
46. Laite therefore does not stand for the principle
SCAD advocates. See Belen Jesuit Preparatory Sch.,

39a
Inc. v. Sportswear, Inc., 2016 WL 4718162, at *6 (S.D.
Fla. May 3, 2016) (explaining that Laite did not involve
or analyze federally-registered marks).
B
Although Laite does not resolve the question before
us, our binding 1975 decision in Boston Hockey stands
on different footing. As SCAD correctly asserts,
Boston Hockey extends protection for federallyregistered service marks to goods, and therefore
beyond the area of registration listed in the certificate.
In Boston Hockey, the National Hockey League and
twelve of its member teams sued to prevent a
manufacturer from selling embroidered sew-on patches
featuring the teams’ federally-registered service
marks. See 510 F.2d at 1008. Like SCAD, most of the
hockey teams had registered marks only in connection
with the provision of services, and held no registrations
for goods, apparel, or promotional merchandise. See id.
at 1009. Two of the hockey teams had also registered
their marks for certain goods, see Boston Prof’l Hockey
Ass’n Inc. v. Dallas Cap & Emblem Mfg., Inc., 360
F.Supp. 459, 461 (N.D. Tex. 1973), but we conducted
the § 1114 infringement analysis without distinguishing
the teams on that basis. See 510 F.2d at 1011.
The Boston Hockey panel phrased the issue of first
impression as “whether the unauthorized, intentional
duplication of a professional hockey team’s symbol ... to
be sold ... as a patch for attachment to clothing, violates
any legal right of the team to the exclusive use of that
symbol.” Id. at 1008. As SCAD has done in this case,
the NHL and its hockey teams sued for violations of §§
1114 and 1125 of the Lanham Act, and for common-law
unfair competition. Id. at 1009. The material facts here

40a
are very similar to those in Boston Hockey, with one
main exception. The manufacturer in Boston Hockey
sold only mark-replica patches, and did not affix the
teams’ marks to other goods such as t-shirts or jackets.
See id. The panel acknowledged that trademark law
generally protects against the sale of “something other
than the mark itself,” see id. at 1010, but concluded that
each team had an interest in its mark “entitled to legal
protection against such unauthorized duplication.” Id.
at 1008.
Recognizing that its “decision ... [could] slightly tilt
the trademark laws from the purpose of protecting the
public to the protection of the business interests of [the
teams],” the Boston Hockey panel was persuaded that
granting relief was appropriate because the teams’
efforts gave commercial value to the patches, and “the
sale of a reproduction of the trademark itself on [a
patch] is an accepted use of such team symbols” in the
arena of professional sports. See id. at 1011. When it
came to the statutory claim under § 1114, the panel
reasoned that the teams’ marks were validly registered
and skipped straight to determining whether the
manufacturing company’s use was likely to cause
confusion. See id. Absent from the panel’s analysis was
an explanation for how or why the teams’ registrations
for “hockey entertainment services” provided statutory
protection as to goods like embroidered patches.
In the end, the Boston Hockey panel rejected the
manufacturer’s argument that consumer confusion
must derive from the “source of the manufacture” of
the mark because the mark, “originated by the team,
[was] the triggering mechanism for the sale of the
[patch].” Id. at 1012. In other words, “[t]he confusion

41a
... requirement [wa]s met by the fact that the
[manufacturer] duplicated the protected trademarks
and sold them to the public knowing that the public
would identify them as being the teams’ trademarks.”
Id.
Boston Hockey, though in our view lacking critical
analysis, implicitly but necessarily supports the
proposition that the holder of a federally-registered
service mark need not register that mark for goods—or
provide evidence of prior use of that mark on goods—in
order to establish the unrestricted validity and scope of
the service mark, or to protect against another’s
allegedly infringing use of that mark on goods. On
remand, the district court will have to review SCAD’s
claims under § 1114 and § 1125 in light of Boston
5
Hockey.
Among other things, the district court will need to
assess the strength of SCAD’s word marks. See, e.g.,
Welding Servs., Inc. v. Forman, 509 F.3d 1351, 1357–58
(11th Cir. 2007) (describing the “four gradations of
distinctiveness”). And it will have to consider whether
SCAD has demonstrated that Sportswear’s use of its
word marks is likely to create consumer confusion as to
origin, source, approval, affiliation, association, or
sponsorship. See Burger King Corp. v. Mason, 710
F.2d 1480, 1491–92 (11th Cir. 1983); Professional
Golfers Ass’n of Am. v. Bankers Life & Casualty Co.,
514 F.2d 665, 670 (5th Cir. 1975).
5

Given that Boston Hockey controls, we need not and do not
address whether SCAD used its word marks on apparel prior to
Sportswear or whether the district court properly excluded an
article on a website submitted by SCAD.

42a
Once a party has shown an enforceable right in a
mark, a court usually considers a number of factors in
assessing whether an infringing use is likely to cause
confusion. These are “(1) the strength of the allegedly
infringed mark; (2) the similarity of the infringed and
infringing marks; (3) the similarity of the goods and
services the marks represent; (4) the similarity of the
parties’ trade channels and customers; (5) the similarity
of advertising media used by the parties; (6) the intent
of the alleged infringer to misappropriate the
proprietor’s good will; and (7) the existence and extent
of actual confusion in the consuming public.” Florida
Int’l Univ. Bd. of Trustees v. Florida Nat’l Univ., Inc.,
830 F.3d 1242, 1255 (11th Cir. 2016). Generally, “the
type of mark and the evidence of actual confusion are
the most important” factors. Id. (citation omitted);
Caliber Auto. Liquidators, Inc. v. Premier Chrysler,
Jeep, Dodge, LLC, 605 F.3d 931, 935 (11th Cir. 2010).
We add one final note about the confusion analysis.
The confusion discussion in Boston Hockey, 510 F.2d at
1012, came under strong criticism because it “did not
require proof of a likelihood that customers would be
confused as to the source or affiliation or sponsorship of
[the] defendant’s product,” and instead only asked
whether “customers recognized the products as bearing
a mark of the plaintiff[s].” 4 McCarthy on Trademarks
§ 24:10 (describing the “heresies” of Boston Hockey and
concluding that its “attempt to stretch trademark law
failed”). See also Stacey L. Dogan & Mark A. Lemley,
The Merchandising Right: Fragile Theory or Fait
Accompli?, 54 Emory L.J. 461, 474 (2005) (“The court
[in Boston Hockey ] ... presumed actionable confusion
based solely on the consumer’s mental association
between the trademark and the trademark holder.”).

43a
In a binding decision issued only two years later,
however, we read Boston Hockey narrowly, limited its
confusion analysis to the facts in the case, and
explained that it did not do away with traditional
confusion analysis. See Kentucky Fried Chicken Corp.
v. Diversified Packaging Corp., 549 F.2d 368, 389 (5th
Cir. 1977) (“[W]e do not believe Boston Hockey equates
knowledge of the symbol’s source with confusion
sufficient to establish trademark infringement, and we
deem the confusion issue unresolved by our existing
decisions.”). The current Fifth Circuit echoed that
discussion and similarly retreated from a broad reading
of Boston Hockey. See Bd. of Supervisors for Louisiana
State Univ. Agric. & Mech. Coll. v. Smack Apparel Co.,
550 F.3d 465, 485 (5th Cir. 2008) (reiterating “that a
showing of likelihood of confusion [i]s still required
[and] ... not[ing] that the circumstances in Boston
Hockey supported ... ‘the inescapable inference that
many would believe that the product itself originated
with or was somehow endorsed by [the teams]’ ”)
(citation omitted); Supreme Assembly, Order of
Rainbow for Girls v. J. H. Ray Jewelry Co., 676 F.2d
1079, 1084–85 & n.7 (5th Cir. 1982) (clarifying that
confusion must stem from a perceived connection
between the product and the rightful owner of the
mark because “[i]t is not enough that typical buyers
purchase the items because of the presence of the
6
mark”).

6

In passing, we note that Laite has also been recognized—albeit to
a much lesser extent—as providing protection where the owner of
a common-law mark has not adequately established confusion as to
the origin of a contested product. See, e.g., Steve McKelvey & Ari
J. Sliffman, The Merchandising Right Gone Awry: What “Moore”

44a
So, although the district court on remand is to apply
Boston Hockey as to the validity and scope of SCAD’s
service marks, it will have to analyze what impact, if
any, the case has on the confusion issue.
C
We pause to note the unexplained analytical leap in
Boston Hockey. Under the Lanham Act, registration is
“prima facie evidence of the validity of the registered
mark ..., of the registrant’s ownership of the mark, and
of the registrant’s exclusive right to use the registered
mark in commerce on or in connection with the goods or
services specified in the registration.”
§ 1115(a)
(emphasis added). If that is so, then one would think
that there should be some legal basis for extending the
scope of a registered service mark in a certain field
(e.g., educational services) to a different category
altogether (e.g., goods). As we have noted elsewhere,
“[d]etermining whether an infringement has taken
place is but the obverse of determining whether the
service mark owner’s property right extends into a
given area.” Jellibeans, Inc. v. Skating Clubs of
Georgia, Inc., 716 F.2d 833, 839 (11th Cir. 1983).
Yet Boston Hockey does not provide any basis for
extending service mark rights to goods. This silence is
potentially problematic for several reasons.
First, other circuits have said that service marks do
not by their nature extend to goods or products. See
Murphy v. Provident Mut. Life Ins. Co. of
Philadelphia, 923 F.2d 923, 927 (2d Cir. 1990) (“Clearly,
Can Be Said?, 52 Am. Bus. L.J. 317, 343 (2015) (discussing the
“judicial trend expanding the concept of a ‘merchandising right’ “).

45a
the term [‘services’ in the Lanham Act] does not apply
to goods or products.”); Application of Radio Corp. of
Am., 205 F.2d 180, 182 (C.C.P.A. 1953) (“Clearly had
Congress intended service marks to apply to goods or
products, we believe it would have so stated.”). See
also A. Samuel Oddi, The Functioning of
‘Functionality’ in Trademark Law, 22 U. Houston L.
Rev. 925, 958 (1985) (“In fact, the marks that had been
registered by the hockey teams [in Boston Hockey]
were service marks, and it may be questioned whether
it is appropriate to extend service mark protection to
‘goods’ [the patches].”). If these other circuits and
commentators are wrong, in whole or in part, we should
explain why.
Second, a right in a mark is not a “right in gross.”
United Drug Co. v. Theodore Rectanus Co., 248 U.S. 90,
97, 39 S. Ct. 48, 63 L.Ed. 141 (1918). This means that
“[t]here is no property in a [mark] apart from the
business or trade in connection with which it is
employed.” American Steel Foundries v. Robertson,
269 U.S. 372, 380, 46 S. Ct. 160, 70 L.Ed. 317 (1926)
(addressing trademarks).
The decision in Boston
Hockey, however, seems to provide the holder of a
service mark with a form of monopolistic protection, a
so-called “independent right to exclude.” 4 McCarthy
on Trademarks § 24:10. See also United States v. Giles,
213 F.3d 1247, 1250 (10th Cir. 2000) (noting that even
though the teams in Boston Hockey “had not registered
their marks for use on patches, the [former Fifth
Circuit] essentially gave the[m] a monopoly over use of
the trademark in commercial merchandising”); Int’l
Order of Job’s Daughters v. Lindeburg & Co., 633 F.2d
912, 919 (9th Cir. 1980) (“Interpreted expansively,
Boston Hockey holds that a trademark’s owner has a

46a
complete monopoly over its use, including its functional
use, in commercial merchandising. But our reading of
the Lanham Act and its legislative history reveals no
congressional design to bestow such broad property
rights on trademark owners.”) (footnote omitted).
Third, it is well-settled that trademark (and service
mark) rights are derived through use, see, e.g., United
Drug, 248 U.S. at 97, 39 S. Ct. 48, and we have not
critically analyzed whether the procedural advantages
of a mark’s registration, see Laite, 756 F.2d at 1541, or
incontestability, see Dieter, 880 F.2d at 325–26, can
serve as a basis for expanding the scope of service
mark protection to a tangible good or product. See 3
McCarthy on Trademarks § 19:3 (explaining that,
although registering a mark provides procedural and
legal benefits, “the registration does not create the
trademark”); id. at § 32:141 (observing that “the case
law usually discusses incontestability when a plaintiff
asserts incontestability as the source of its right to be
secure from a challenge to the validity of its mark”).
Cf. In re Save Venice N.Y., Inc., 259 F.3d 1346, 1353
(Fed. Cir. 2001) (observing that “[a] registered mark is
incontestable only in the form registered and for the
goods or services claimed”).
We recognize that, as to federally-registered
trademarks, we have not limited protection to the
actual product or products listed in the certificate of
registration.
“The remedies of the owner of a
registered trademark,” we have held, “are not limited
to the goods specified in the certificate, but extend to
any goods on which the use of an infringing mark is
‘likely to cause confusion.’ ” Continental Motors Corp.
v. Continental Aviation Corp., 375 F.2d 857, 861 (5th

47a
Cir. 1967) (citation omitted). See also E. Remy Martin
& Co., S.A. v. Shaw-Ross Int’l Imports, Inc., 756 F.2d
1525, 1530 (11th Cir. 1985) (examining the similarity of
products factor, we acknowledged that registered
trademark rights may “extend to any goods related in
the minds of consumers in the sense that a single
producer is likely to put out both goods”). Accord 6
McCarthy on Trademarks §§ 32:137, 32:152. Yet
extending the scope of a registered trademark (which
identifies “goods”) to a different product appears to be
qualitatively different from extending the scope of a
registered service mark (which identifies “services”) to
a different category of “goods.”
There may be a sound doctrinal basis for what
Boston Hockey did. But unless the concept of confusion
completely swallows the antecedent question of the
scope of a registered mark, we have yet to hear of it.
V
On some level, we understand that allowing a party
to “take a free ride on another’s registered trademark,”
see B. H. Bunn Co. v. AAA Replacement Parts Co., 451
F.2d 1254, 1261 (5th Cir. 1971), simply feels wrong.
Trademark rights, however, do “not confer a right to
prohibit the use of [a] word or words” generally and
exist “to protect the owner’s good will against the sale
of another’s product as his.” Prestonettes, Inc. v. Coty,
264 U.S. 359, 368, 44 S. Ct. 350, 68 L.Ed. 731 (1924).
If Boston Hockey did not exist, the district court’s
rationale might provide a reasonable way of analyzing
the alleged infringement of registered service marks
through their use on goods. But Boston Hockey is in
the books, and it compels reversal of summary
judgment in favor of Sportswear. Although there may

48a
be “error in [that] precedent,” United States v. Romeo,
122 F.3d 941, 942 n.1 (11th Cir. 1997), we do not have
the authority, as a later panel, to disregard it. The case
is remanded to the district court for further
proceedings consistent with this opinion.
REVERSED AND REMANDED.

49a
Appendix C
IN THE UNITED STATES DISTRICT COURT
FOR THE NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
SAVANNAH COLLEGE OF
ART AND DESIGN, INC.,
Plaintiff,
v.

CIVIL ACTION FILE
NO. 1:14-CV-2288-TWT

SPORTSWEAR, INC.
d/b/a PrepSportswear,
Defendant.
_____________________________
OPINION AND ORDER
This is a trademark infringement case. It is before
the Court on the Defendant’s Motion for Summary
Judgment [Doc. 39], the Plaintiff’s Motion for Summary
Judgment [Doc. 40], and the Defendant’s Motion to
Strike Improper Evidence [Doc. 50]. For the reasons
stated below, the Defendant’s Motion for Summary
judgment is GRANTED in part and DENIED in part
and the Plaintiff’s Motion for Summary Judgment is
GRANTED.
The Defendant’s Motion to Strike
Improper Evidence is GRANTED.

50a
I. Background
The Plaintiff, Savannah College of Art and Design,
Inc., was founded in 1978 as a private, non-profit
1
college. The Plaintiff now has campuses in Savannah,
2
Atlanta, Hong Kong, and Lacoste, France.
The
3
Plaintiff’s business is providing educational services.
The Plaintiff owns several service marks registered in
connection with the provision of educational services:
4
Registration No. 3,751,493 for a circular bee design,
5
Registration No. 3,118,809 for a circular shield design,
6
Registration No. 2,686,644 for the text mark “SCAD,”
and Registration No. 2,918,888 for the text mark
7
“Savannah College of Art and Design.”
The
Defendant, Prep Sportswear, is an internet-based
8
business incorporated under Washington law in 2005.
The Defendant sells customizable apparel and fan
clothing for a variety of organizations, including high
9
school and college sports teams. In August of 2009, the
Defendant began selling goods bearing the words
1

2

3

4

5

6

7

8

9

Def.’s Statement of Material Facts ¶ 1 [[Doc. 039-2].
Id.
Id. ¶ 2.
Id. ¶ 4.
Id. ¶ 8.
Id. ¶ 14.
Id. ¶ 17.
Id. ¶ 44.
Id. ¶ 45.

51a
10

“Savannah College of Art and Design” and “SCAD.”
On July 18, 2014, the Plaintiff brought suit for
trademark infringement under Section 32 of the
Lanham Act, 15 U.S.C. § 1114; unfair competition and
false designation of origin under Section 43(a) of the
Lanham Act, 15 U.S.C. § 1125; and unfair competition
and trademark infringement under the Georgia
Uniform Deceptive Trade Practices Act, O.C.G.A. § 101-372.
The parties filed cross-motions for summary
judgment on April 17, 2015. The Court entered
judgment in favor of the Defendant. The Court found
dispositive the following facts: (1) all of the marks were
registered in connection with the provision of
11
educational services; (2) none of the marks were
registered for use in connection with the sale of
12
apparel; and (3) the Plaintiff produced no evidence
that it or its licensees had used the marks in connection
13
with the sale of apparel prior to 2011. Section 1114
protects against infringement only if the marks at issue
are federally registered. The Court reasoned that the
Plaintiff could not sustain its § 1114 claims because it
could not show that it had federally registered its
marks for use in connection with the sale of apparel.
Section 1125 extends broader protections to the holders
10

11

12

13

Id. ¶¶ 53-54.
Id. ¶¶ 5, 9, 15, 18.
Id. ¶¶ 6, 10, 16, 19

In 2011, the Plaintiff entered into a licensing agreement with
Follett Higher Education Group, Inc. to sell branded apparel in its
campus bookstores. Id. ¶¶ 24, 27-30.

52a
of both registered and unregistered, or “common-law,”
marks. In order to sustain its § 1125 claim, however,
the Plaintiff would need to demonstrate that it had
appropriated common-law trademark rights through
prior use of its marks in commerce. There is no
evidence in the record that the Plaintiff used its marks
in commerce prior to the Defendant’s first use of the
marks on apparel in 2009. Therefore, the Court
concluded that the Plaintiff’s federal claims, and by
extension its state law claim, failed as a matter of law.
The Court did not reach the question of whether the
Defendant’s use of the contested marks created a
likelihood of confusion.
The Plaintiff appealed to the Eleventh Circuit. The
Eleventh Circuit reversed and remanded on the
grounds that this Court’s decision could not be
reconciled with the controlling authority of Boston
Professional Hockey As’sn, Inc., v. Dallas Cap &
14
Emblem Mfg., Inc. In Boston Hockey, the National
Hockey League and several individual hockey teams
sought to enjoin the defendant manufacturer from
selling replica patches bearing the teams’ symbols. The
hockey teams had federally registered their team
symbols “as service marks for ice hockey entertainment
services,” but had not registered their marks in
connection with the sale of goods. The Boston Hockey
panel nevertheless held that the plaintiffs were entitled
to a permanent injunction barring the defendant from
manufacturing and selling the replica patches. The
Eleventh Circuit explained the doctrinal implications as
follows:
14

510 F.2d 1004 (5th Cir. 1975).

53a
Registered service mark need not register that
mark for goods-or provide evidence of prior use
of that mark on goods-in order to establish the
unrestricted validity and scope of the service
mark, or to protect against another’s allegedly
15
infringing use of that mark on goods.
In light of Boston Hockey, the Eleventh Circuit held
that the validity and scope of the Plaintiff’s federally
registered service marks extend to the Defendant’s use
of the allegedly infringing marks on apparel. The
Eleventh Circuit remanded to this Court with
instructions to “assess the strength of [the Plaintiff’s]
word marks” and to “consider whether SCAD has
demonstrated that Sportswear’s use of its word marks
is likely to create consumer confusion as to origin,
source,
approval,
affiliation,
association,
or
16
sponsorship.” On remand, the parties agree that the
record is complete and that the matter is ripe for
17
summary adjudication.
The Court will therefore
address the parties’ remaining arguments on summary
judgment.
II. Standard Legal
Summary judgment is appropriate only when the
pleadings, depositions, and affidavits submitted by the
parties show no genuine issue of material fact exists
15

Savannah Coll. Of Art & Design, Inc. v. Sportswear, Inc., 872
F.3d 1255, 1264 (11th Cir. 2017), cert. denied, 139 S. Ct. 57, 202 L.
Ed. 2d 20 (2018).
16

17

Id., 872 F.3d at 1264.

Pl.’s Letter Br. in Supp. of Summ. J., at 5 [Doc. 83]; Def.’s Resp.
to Pl.’s Letter Br. in Supp. of Summ. J., at 1 [Doc. 85].

54a
and that the movant is entitled to judgment as a matter
18
of law. The court should view the evidence and any
inferences that may be drawn in the light most
19
favorable to the nonmovant.
The party seeking
summary judgment must first identify grounds that
20
show the absence of a genuine issue of material fact.
The burden then shifts to the nonmovant, who must go
beyond the pleadings and present affirmative evidence
21
to show that a genuine issue of material fact exists.
III. Discussion
The Plaintiff argues that summary judgment should
be granted for all of its infringement claims on
22
likelihood of confusion grounds. “Although likelihood
of confusion is a question of fact, it may be decided as a
23
matter of law.” The Defendant’s primary argument
for summary judgment has been foreclosed by the
18

19

20

21

Fed. R. Civ. P. 56(c).
Adickes v. S.H. Kress & Co., 398 U.S. 144, 158-59 (1970).
Celotex Corp. V. Catrett, 477 U.S. 317, 323-24 (1986).
Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 257 (1986).

22

The Plaintiff’s § 1114 and § 1125 claims both turn on whether the
Defendant’s use of similar or identical marks is likely to cause
confusion as to the origin of the products. Ross Bicycles, Inc. v.
Cycles USA, Inc., 765 F.2d 1502, 1503-04 (11th Cir. 1985). Courts
analyzing infringement claims arising under Georgia law apply the
same likelihood of confusion test. Kason Indus. v. Component
Hardware Group, 120 F.3d 1199, 1203 (11th Cir. 1997).
Accordingly, there is no need for the Court to distinguish between
the Plaintiff’s claims in addressing its arguments on summary
judgment.
23

Tana v. Dantanna’s, 611 F.3d 767, 775 n.7 (11th Cir. 2010).

55a
Eleventh Circuit on appeal. In the alternative, the
Defendant argues for summary judgment based on the
affirmative defenses of abandonment and functionality.
The Defendant further argues that there is no evidence
in the record that it has actually used the Plaintiff’s
shield design mark on apparel goods. Finally, the
Defendant renews its motion to exclude evidence
pertaining to the Plaintiff’s advertising of its marks
from the summary judgment record.
“In a trademark infringement action, the plaintiff
must show, first, that its mark is valid and, second, that
the defendant’s use of the contested mark is likely to
24
cause confusion.”
The Defendant’s affirmative
defenses are challenges to the validity of the Plaintiff’s
marks that, in the Court’s view, are best resolved
before proceeding to the likelihood of confusion prong.
Therefore, the Court will begin with the Defendant’s
affirmative defenses. The Court will also resolve the
Defendant’s evidentiary motions because the evidence
that the Defendant seeks to exclude is relevant to the
likelihood of confusion analysis.
A. Abandonment
The Defendant argues that the Plaintiff’s marks
have been abandoned through naked licensing. “A
license is naked, resulting in trademark abandonment,
24

Dieter v. B & H Indus. of Sw. Fla., Inc., 880 F.2d 322, 326 (11th
Cir. 1989). The Plaintiff’s federal claims for infringement and
unfair competition and its parallel state law claims all turn on the
likelihood of confusion test. See Amstar Corp. v. Domino’s Pizza,
Inc., 615 F.2d 252, 258-59 (5th Cir. 1980); Caliber Auto.
Liquidators, Inc. v. Premier Chrysler, Jeep, Dodge, LLC, 605 F.3d
931, 935, 935 n.16 (11th Cir. 2010).

56a
when there is insufficient control retained by the
trademark owner to ensure the quality of production
25
and prevent public confusion.”
An abandoned
trademark “falls into the public domain and is free for
26
all to use[.]” The party alleging abandonment must
meet a stringent burden, because “only minimal control
27
is required to make the trademark license valid.”
In June of 2011, the Plaintiff entered into a
“Bookstore Management Agreement” with Follett
Higher Education Group, Inc. that, among other things,
licensed Follett to sell merchandise bearing the
Plaintiff’s marks online and in the Plaintiff’s brick and
28
mortar bookstores. The parties contest the extent of
the Plaintiff’s control over the quality of the goods sold
by Follett. The Defendant relies on excerpts from
depositions with the Plaintiff’s employees that
purportedly show that the Plaintiff’s employees do not
select, approve, or inspect the quality of the clothing

25

Go Med. Indus. Pty, Ltd. Bav. Inmed Corp., 300 F. Supp. 2d
1297, 1315 (N.D. Ga. 2003) (citing Barcamerica Intern. USA Trust
v. Tyfield Importers, Inc., 289 F.3d 589, 596 (9th Cir. 2002)), aff’d
sub nom. Go Med. Indus. Pty., Ltd. v. Inmed Corp., 471 F.3d 1264
(Fed. Cir. 2006)
26

Cumulus Media, Inc. v. Clear Channel Commc’ns, Inc., 304
F.3d 1167, 1173 (11th Cir. 2002) (quoting 3 McCarthy on
Trademarks and Unfair Competition § 17:1 (4th ed.)).
27

Go Med. Indus. Pty, Ltd., 300 F. Supp. 2d at 1315 (citing U.S.
Jaycees v. Philadelphia Jaycees, 639 F.2d 134, 140 (3rd Cir. 1981);
Kentucky Fried Chicken Corp. v. Diversified Packaging Corp.,
549 F.2d 368, 387 (5th Cir. 1977)
28

Ex. 6 to Axel Decl., at 3 [Doc. 39-10].

57a
29

manufactured and sold by Follett. In response, the
Plaintiff points to language from the licensing
agreement indicating that the Plaintiff may “in its sole
discretion” direct Follett to discontinue sale of any
30
goods deemed to be of insufficient quality.
The
Plaintiff also points to evidence tending to show that its
employees are involved in some capacity in the design
31
and quality control process. It is clear from the record
that the Plaintiff exercises at least some control over
the Follett’s products bearing its marks.
In addition to its naked licensing argument, the
Defendant makes the related but analytically distinct
argument that the Plaintiff has “expressly abandoned”
the bee design mark when it issued internal
instructions in 2011 to cease use of the mark on
32
apparel.
The Defendant’s abandonment argument
with respect to the bee design mark is without merit.
It appears from the record that the Plaintiff has
continuously used the bee design mark in connection
with the educational services for which it is registered.
There is no direct or circumstantial evidence in the
record to support a finding that the Plaintiff intended
to abandon its service mark. As the Eleventh Circuit
explained on appeal, whether the Plaintiff does or does
not use its marks on goods has no bearing on the marks’
validity in this infringement action. Therefore, the
29

Def.’s Statement of Material Facts ¶¶ 37-43.

30

Pl.’s Resp. to Def.’s Mot. for Summ. J., at 11 [Doc. 46] (citing Ex.
6 to Axel Decl.).
31

32

Id. at 11-15.
Def.’s Br. in Supp. of Mot. for Summ. J., at 24 [Doc. 39-1].

58a
Defendant’s motion for summary judgment on the
defense of abandonment should be denied.
B. Functionality
The Defendant argues that its use of the Plaintiff’s
marks is functional and therefore cannot constitute
trademark infringement. “The functionality doctrine
prevents trademark law, which seeks to promote
competition by protecting a firm’s reputation, from
instead inhibiting legitimate competition by allowing a
33
producer to control a useful product feature.”
A
product feature that is deemed functional is not
protected by trademark law even if its use might give
rise to confusion as to the source of the product. The
Eleventh Circuit has recognized two tests for
determining functionality. The “traditional test” asks
whether a product feature “is essential to the use or
purpose of the article or if it affects the cost or quality
34
of the article.”
The “competitive necessity test,”
which applies in cases of aesthetic functionality, asks
whether “a functional feature is one the ‘exclusive use

33

Dippin’ Dots, Inc. v. Frosty Bites Distribution, LLC, 369 F.3d
1197, 1202 (11th Cir. 2004) (quoting Qualitex Co. v. Jacobson
Prods. Co., 514 U.S. 159, 164 (1995)); see also 1 McCarthy on
Trademarks and Unfair Competition § 7:63 (5th ed.)(“The
requirement of nonfunctionality in trademark and trade dress law
is concerned with whether the particular shape or feature claimed
to be a trademark or trade dress contributes to a utilitarian
purpose. If it makes the product more useful for its purpose or
contributes to economy of manufacture or use, then the feature is
‘functional’ and is not capable of trademark protection.”).
34

Dippin’ Dots, Inc., 369 F.3d at 1203 (quoting TrafFix Devices,
Inc. v. Mktg. Displays, Inc., 532 U.S. 23, 32 (2001)).

59a
of [which] would put competitors at a significant non35
reputation-related disadvantage.’ ”
Although not specifically couched as such, it is clear
that the Defendant is proceeding on a theory of what
one commentator describes as “defensive” aesthetic
36
functionality. The Defendant argues that, unlike the
Plaintiff, it uses the Plaintiff’s marks not as indicators
of the product’s source but rather as aesthetic features
that serve to increase the desirability of the apparel for
consumers who want to signal their affiliation with the
Plaintiff.
This use of the Plaintiff’s marks, the
Defendant argues, is functional and therefore not
actionable under trademark law. The Defendant cites
in support the post-split Fifth Circuit case Supreme
Assembly, Order of Rainbow for Girls v. J. H. Ray
37
Jewelry Co. In Supreme Assembly, the Fifth Circuit
affirmed a lower court decision holding that the
defendant jewelry maker’s use of the plaintiff fraternal
organization’s collective mark on jewelry served the
functional purpose of showing affiliation with the
38
organization.
The Defendant also cites the Ninth
35

Id. (quoting TrafFix Devices, Inc., 532 U.S. at 32).

36

See 1 McCarthy on Trademarks and Unfair Competition § 7:82
(5th ed.) (“A handful of cases take the position that the
unauthorized use of what is unquestionably someone else’s valid
and nonfunctional trademark is not an infringement because the
defendant is making an aesthetically functional use of the mark.
These cases take the aesthetic functionality theory of a challenge
to the validity of a mark and turn it on its head into a defense to a
valid mark.”).
37

38

676 F.2d 1079 (5th Cir. 1982).
Id., at 1083 n.5.

60a
Circuit case International Order of Job’s Daughters v.
39
Lindeburg & Co.
In Job’s Daughters, the Ninth
Circuit held that the use of a fraternal organization’s
marks on jewelry was functional because consumers
purchase such products to express allegiance to the
organization and it “would be naïve to conclude that the
name or emblem is desired because consumers believe
that the product somehow originated with or was
sponsored by the organization the name or emblem
40
signifies.”
The Defendant’s reliance on these cases is
misplaced. In Supreme Assembly, the Fifth Circuit did
not reach the question of whether the lower court’s
findings on functionality were correct, instead affirming
based on the district court’s finding of no likelihood of
41
confusion.
As for Job’s Daughters, the broad
interpretation of aesthetic functionality espoused in
that case has since been substantially narrowed by the
42
Ninth Circuit,
and its underlying assumptions
regarding consumer behavior have been rejected by
43
the Eleventh Circuit.
Neither case involved
application of the modern test for “comparative
necessity” employed by the Eleventh Circuit. The
Defendant does not even cite the Eleventh Circuit test,
39

40

41

633 F.2d 912 (9th Cir. 1980).
Id., at 918.
676 F.2d at 1083 n.5.

42

Au-Tomotive Gold, Inc. v. Volkswagen of Am., 457 F.3d 1062,
1070 (9th Cir. 2006).
43

Univ. of Georgia Athletic Ass’n v. Laite, F.2d 1535, 1547 (11th
Cir. 1985).

61a
much less explain how being denied the use of the
Plaintiff’s marks would put it at a “non-reputationrelated disadvantage.” Indeed, the inability to use the
trade name of another on one’s own product would
appear to be precisely the kind of “reputation-related
disadvantage” sanctioned by trademark law. The mere
fact that the use of the Plaintiff’s mark adds value to
the Defendant’s product does not support a finding that
the use is functional. The Defendant’s motion for
summary judgment on the defense of functionality
should be denied.
C. Non-Use of Shield Design Mark
The Defendant argues that there is no evidence that
it has used any portion of the Plaintiff’s shield design
44
mark on apparel.
The Plaintiff concedes that the
Defendant “has apparently not offered for sale or sold
45
any goods with that exact shield design.” The Plaintiff
instead contends that the Defendant has sold goods
bearing the words “Savannah College of Art and
Design,” which appear in a circular border of the design
46
mark. But the infringement alleged is already covered
by the Plaintiff’s word mark for this exact phrase. The
Plaintiff cannot show that the Defendant has ever used
the shield image or used the phrase “Savannah College
of Art and Design” arranged as it appears on the shield
design mark. Therefore, the Defendant’s motion for
summary judgment as to the Plaintiff’s claims for
infringement of the shield design mark is granted.
44

45

46

Def.’s Br. in Supp. of Mot. for Summ. J., at 22-23.
Pl.’s Resp. to Def.’s Br. in Supp. of Mot. for Summ. J., at 15.
Id.

62a
D. Renewed Motion to Exclude
The Defendant asks the Court to revisit its decision
granting in part and denying as moot in part the
Defendant’s motion to exclude evidence from the
record on summary judgment. After the parties’ final
round of summary judgment briefing, the Defendant
moved to exclude three pieces of evidence attached to
the Plaintiff’s reply brief: (1) a website purporting to
show prior use of the Plaintiff’s marks on apparel; (2) a
paragraph from the declaration of Hannah Flower, the
Plaintiff’s Associate Vice President for Academic
Support and Legal Affairs and a deponent in this case,
detailing expenditures related to the marketing of the
Plaintiff’s services and programs; and (3) a different
paragraph from the same declaration detailing the
avenues through which the Plaintiff markets its
services. The Court granted the Defendant’s motion to
exclude the website. The Court denied the remainder
of the motion to exclude as moot because, in the Court’s
view, evidence of the Plaintiff’s advertising
expenditures and methods was not relevant to the
question of whether the Plaintiff possessed enforceable
rights in a mark related to the sale of apparel goods.
The Court’s ruling on the admissibility of the
website was not disturbed by the Eleventh Circuit on
appeal and the Court sees no reason to revisit it. The
Court must, however, revisit its ruling regarding the
evidence contained in the declaration attached to the
Plaintiff’s reply brief. Evidence of the Plaintiff’s
general advertising expenditures and methods is
potentially relevant to the question of likelihood of
confusion, which the Court did not reach in its prior
summary judgment Order. The Court concludes that

63a
the declaration must also be excluded. The declaration,
in effect, provides new testimony from one of the
Plaintiff’s deponents after the close of discovery and
after the Defendant’s response brief had already been
filed. The Court finds no support for this procedural
maneuver in the federal rules or case law. Accordingly,
the renewed motion to exclude is granted in full and the
Court will not consider the declaration on summary
judgment.
E. Likelihood of Confusion
“In a trademark infringement action, the plaintiff
must show, first, that its mark is valid and, second, that
the defendant’s use of the contested mark is likely to
47
cause confusion.” The Court must now proceed to the
second prong of the test for trademark infringement:
whether the Defendant’s use of the Plaintiff’s marks is
48
likely to cause confusion. The Plaintiff argues that the
47

48

Dieter, 880 F.2d at 326.

While the Eleventh Circuit applied Boston Hockey to the
question of whether the Plaintiff’s marks were valid and
enforceable, the Eleventh Circuit specifically disclaimed what one
commentator described as the “heresies” of Boston Hockey with
regards to likelihood of confusion. Savannah Coll. of Art &
Design, Inc., 872 F.3d at 1264 (citing 4 McCarthy on Trademarks §
24:10). Boston Hockey appears to suggest that infringement lies
when customers “recognize[ ] the product as bearing a mark of the
plaintiff[s],” regardless of whether the customers are thereby
confused as to the affiliation or sponsorship of the product. 4
McCarthy on Trademarks § 24:10. As the Eleventh Circuit
explained, that is not the law. The Plaintiff must show likelihood
of confusion in order to prevail. Therefore, the Court proceeds
with the understanding that Boston Hockey is of little relevance to
the task at hand.

64a
likelihood of confusion factors weigh so heavily in its
favor that this Court should find infringement as a
matter of law.
In determining whether there is sufficient evidence
in the record to support a finding of likelihood of
confusion, the Court must assess the following seven
factors: (1) the strength or distinctiveness of the
allegedly infringed mark; (2) the similarity between the
infringed and infringing marks; (3) the similarity of the
goods or services offered under the infringed and
infringing marks; (4) the similarity of actual sales
methods; (5) the similarity of advertising methods; (6)
the intent of the alleged infringer to misappropriate the
proprietor’s good will; and (7) the existence of actual
49
confusion in the consuming public. The Court must
50
consider each of the seven factors, but the factors
need not be accorded equal weight depending on the
51
facts of the case.
Typically, the most important
factors are the strength of the mark and the existence
52
of actual confusion.
Before proceeding, however, the Court will address
the Defendant’s argument that the Plaintiff’s services
and the Defendant’s goods are unrelated, such that
53
confusion is “highly unlikely.”
According to the
49

See Tana, 611 F.3d at 775; Welding Servs., Inc. v. Forman, 509
F.3d 1351, 1360 (11th Cir. 2007).
50

51

Welding Servs., Inc., 509 F.3d at 1361.
Laite, 756 F.2d at 1542.

52

Fla. Int’l Univ. Bd. of Trustees v. Fla. Nat’l Univ., Inc., 830 F.3d
1242, 1255 (11th Cir. 2016).
53

Def.’s Resp. to Pl.’s Letter Br. in Supp. of Summ. J., at 1.

65a
Defendant, the parties, this Court, and the Eleventh
Circuit all agree that the Plaintiff’s educational services
54
are not “related” to the Defendant’s apparel goods.
The Defendant mischaracterizes the Plaintiff’s position
and the prior rulings in this case. The Plaintiff has
stipulated that it has no evidence that it used its marks
“in connection with the sale of apparel or related goods”
55
prior to the Defendant’s first use. The Plaintiff has
not stipulated, nor has any court ruled, that the
Plaintiff’s educational services are unrelated to the
Defendant’s apparel goods. The relatedness of the
Plaintiff’s services and the Defendant’s goods remains a
live question, and indeed the central question, in this
case. Goods or services can be related even if they are
56
not in competition with one another. In the context of
trademark law, goods or services are “related” when
consumers mistakenly believe that they originate from,
57
or are somehow affiliated with, a single source. This
54

Def.’s Letter Br. in Supp. of Summ. J., at 2 [Doc. 82].

55

Pl.’s Resp. to Def.’s Statement of Material Facts ¶ 24 [Doc. 46-1]
(emphasis added).
56

Babbit Elecs., Inc. v. Dynascan Corp., 38 F.3d 1161, 1179 (11th
Cir. 1994) (“[C]onfusion, or the likelihood of confusion, not
competition, is the real test of trademark infringement.”) (quoting
Mobil Oil Corp. v. Pegasus Petroleum Corp., 818 F.2d 254, 257-58
(2d Cir. 1987)); Cont’l Motors Corp. v. Cont’l Aviation Corp., 375
F.2d 857, 861 (5th Cir. 1967) (“Often and recently we have made
plain that direct competition between the products is not a
prerequisite to protective relief.”).
57

E. Remy Martin & Co., S.A. v. Shaw-Ross Int’l Imports, Inc.,
756 F.2d 1525, 1530 (11th Cir. 1985) (“Moreover, the rights of the
owner of a registered trademark are not limited to protection with
respect to the specific goods stated on the certificate ... but extend

66a
determination is made after conducting the likelihood of
58
confusion analysis, not before. To presume that the
goods and services at issue are unrelated prior to
engaging in likelihood of confusion analysis is to beg the
question.
Although not clearly articulated in the Defendant’s
briefing, the Defendant’s focus on the “unrelatedness”
of the parties’ products could be construed as an
objection to traditional likelihood of confusion analysis
in a case that, as the Defendant puts it, “cross[es] the
goods/services line.” The Lanham Act distinguishes
trademarks, which are registered in connection with
goods, from service marks, which are registered in
59
connection with services. But, “while the distinction
between a trademark and a service mark may be
relevant for registration purposes, it is not particularly
to any goods related in the minds of consumers in the sense that a
single producer is likely to put out both goods.”); Recot, Inc. v.
Becton, 214 F.3d 1322, 1329 (Fed. Cir. 2000) (“Thus, even if the
goods in question are different from, and thus not related to, one
another in kind, the same goods can be related in the mind of the
consuming public as to the origin of the goods. It is this sense of
relatedness that matters in the likelihood of confusion analysis.”).
58

See Tally-Ho, Inc. v. Coast Cmty. Coll. Dist., 889 F.2d 1018, 1027
(11th Cir. 1989) (“ ‘Related use’ is merely a facet of the likelihood
of confusion test and therefore requires an inquiry into seven
factors affecting the likelihood of confusion among consumers[.]”);
4 McCarthy on Trademarks and Unfair Competition § 24:24
(Relatedness “is a conclusion to be made after a full analysis of the
facts shows that there is a likelihood of confusion as to source,
affiliation, sponsorship or connection because of the similarity of
the marks and other facts in the case.”).
59

15 U.S.C. § 1127.

67a
relevant for the purposes of the likelihood of confusion
60
analysis.”
In conducting its likelihood of confusion
analysis, the Court asks whether the Defendant’s use of
the allegedly infringing marks on its products causes
consumer confusion as to origin, source, approval,
61
affiliation, association, or sponsorship. The analysis
remains the same regardless of whether the plaintiff
seeks to enforce its rights in a trademark or a service
62
mark. Examples abound of courts holding that a
likelihood of confusion exists across the goods/services
63
divide.
The seven-factor test for likelihood of
60

Frehling Enterprises, Inc. v. Int’l Select Grp., Inc., 192 F.3d
1330, 1334 n.1 (11th Cir. 1999).
61

Burger King Corp. v. Mason, 710 F.2d 1480, 1491-92 (11th Cir.
1983).
62

Frehling Enterprises, Inc., 192 F.3d at 1334 n.1; see also Bos.
Athletic Ass’n v. Sullivan, 867 F.2d 22, 24 n.1 (1st Cir. 1989) (“A
trademark is used to distinguish one’s goods from those made by
others, while a service mark is used to distinguish one’s services
from those offered by others. In either case the marks are used to
indicate the distinctive source of the goods or services, even if that
source is unknown.”).
63

See In Re Comexa Ltda., 60 U.S.P.Q.2d 1118 (T.T.A.B. 2001)
(affirming Examining Attorney’s refusal to register a trademark
for chili and pepper sauce on the grounds that it was confusingly
similar to a service mark registered in connection with restaurant
services); Beef/Eater Restaurants, Inc. v. James Burrough Ltd.,
398 F.2d 637, 639 (5th Cir. 1968) (holding that the defendant’s use
of the word “Beefeater” in connection with its restaurant services
infringed on the plaintiff’s “Beefeater” trade name registered in
connection with the sale of gin); Bos. Athletic Ass’n v. Sullivan,
867 F.2d 22, 34-35 (1st Cir. 1989) (holding that the defendant’s use
of logos referring to the Boston marathon to sell shirts infringed
on the plaintiff’s service marks used in connection with marathon-

68a
confusion equips the Court to appropriately weigh the
distinctions between goods and services to the extent
that they are relevant in a particular case. It is to this
test that the Court now turns.
1. Strength of the Mark
The Eleventh Circuit has established four
categories of distinctiveness for trade and service
marks. The more distinctive the mark, the more
protection it receives under trademark law. In order of
least to most distinctive, the categories are: (1) generic,
64
(2) descriptive, (3) suggestive, and (4) arbitrary.
Generic marks “refer to a class of which an individual
65
service is a member[.]” They are not entitled to
protection.
Descriptive
marks
“describe
a
66
characteristic or quality of an article or service[.]”
They warrant protection only if the mark owner can
67
prove that the mark has acquired secondary meaning.
related services); John Walker & Sons, Ltd. v. Bethea, 305 F.
Supp. 1302, 1304 (D.S.C. 1969) (holding that the defendant’s use of
the words “Johnny Walker” in connection with motel services
infringed on the plaintiff’s trademark for the words “JOHNNIE
WALKER” in connection with the sale of liquor); see also Murphy
v. Provident Mut. Life Ins. Co. of Philadelphia, 923 F.2d 923, 927
(2d Cir. 1990) (holding that it was irrelevant whether the plaintiff
was claiming ownership of a trademark or a service mark because
“[w]hether a mark is one or the other, the standards for
determining infringement are essentially the same”).
64

Welding Servs., Inc., 509 F.3d at 1357-58; see also Frehling
Enterprises, Inc., 192 F.3d at 1335.
65

66

67

Frehling Enterprises, Inc., 192 F.3d at 1335.
Id.
Welding Servs., Inc., 509 F.3d at 1358.

69a
A descriptive name can acquire secondary meaning by
“becoming associated with the proprietor’s product or
service. A name has acquired secondary meaning when
‘the primary significance of the term in the minds of the
consuming public is not the product but the
68
producer.’ ”
Suggestive marks evoke certain
characteristics of the goods or services and “require an
effort of the imagination” by the consumer in order to
be understood as descriptive, whereas arbitrary or
fanciful marks bear no direct relationship to the goods
69
or services bearing the mark. Suggestive marks and
arbitrary or fanciful marks are presumed strong
70
without any showing of secondary meaning.
The Plaintiff does not dispute that its text marks
are descriptive, but primarily relies on the presumption
of strength accorded to descriptive marks that have
achieved incontestable status. In Dieter v. B & H
Industries of Southwest Florida, Inc., the Eleventh
Circuit held that a mark’s “incontestable status is a
factor to be taken into consideration in likelihood of
71
confusion analysis.” An incontestable mark “is presumed
to be at least descriptive with secondary meaning, and

68

Welding Servs., Inc., 509 F.3d at 1358 (quoting Vision Ctr. V.
Opticks, Inc., 596 F.2d 111, 118 (5th Cir. 1979)).
69

Id.

70

Trilink Saw Chain, LLC v. Blount, Inc., 583 F. Supp. 2d 1293,
1311 (D. Ga. 2008) (citing Sun Banks of Florida, Inc. v. Sun
Federal Savings and Loan Association, 651 F.2d 311, 315 (5th Cir.
1981)).
71

Dieter, 880 F.2d at 329.

70a
72

therefore a relatively strong mark.”
But, while
incontestability creates a presumption of strength, that
73
presumption is not conclusive. Therefore, the Court
will begin with the presumption that the Plaintiff’s
marks are strong, but will consider whether other
factors identified by the Defendant undermine or
74
negate the presumption.
The Defendant insists that, while the Plaintiff’s
marks may be strong as applied to educational services,
they are weak as applied to apparel. If by this the
Defendant means that the marks’ strength cannot
extend beyond the goods or services for which they are
registered, then the Defendant is eliding the distinction
between the validity prong and the likelihood of
confusion prong of the test for infringement. The
statutory language and case law cited by the Defendant
stand for the proposition that, when a mark’s validity is
challenged, its incontestable status is conclusive
evidence only of its validity in relation to the goods and

72

Id.

73

HBP, Inc. v. Am. Marine Holdings, Inc., 290 F. Supp. 2d 1320,
1329 (M.D. Fla. 2003) (“Incontestable status-somewhat of a
misnomer-does not mean that a mark’s strength cannot be
attacked[.] When determining the mark’s strength for the
likelihood of confusion analysis, incontestability is ‘simply one
piece of the overall determination of a mark’s strength.’ ”) (quoting
First Keystone Federal Sav. Bank v. First Keystone Mortg., Inc.,
896 F.Supp. 456, 461 (E.D. Pa. 1995)), aff’d sub nom. HBP, Inc. v.
Am. Marine Holdings, 129 F. App’x 601 (11th Cir. 2005).
74

See Trilink Saw Chain, LLC, 583 F. Supp. 2d at 1312.

71a
75

services listed on the registration. But, “although the
validity of a registered mark extends only to the listed
goods or services, an owner’s remedies against
confusion with its valid mark are not so
76
circumscribed.”
As the Eleventh Circuit has long
recognized, “the rights of the owner of a registered
trademark are not limited to protection with respect to
the specific goods stated on the certificate ... but extend
to any goods related in the minds of consumers in the
sense that a single producer is likely to put out both
77
goods.” The stronger the mark, the greater the scope
78
of protection it receives.
That is not to say that a mark’s strength transfers
undiminished into every market in which the mark
owner seeks to enforce it. Evidence of third party use
of the marks in connection with different goods or
services “limit[s] the protection to be accorded
plaintiff’s mark outside the uses to which plaintiff has
79
already put its mark.” In Amstar, the pre-split Fifth
Circuit recognized that the plaintiff’s “Domino” mark
was strong when it appeared on packaging for sugar.
But evidence of extensive third party use of the term
to, for example, sell cigarettes and donut mix made it
75

Cf. Gameologist Grp., LLC v. Sci. Games Int’l, Inc., 838 F. Supp.
2d 141, 153 (S.D.N.Y. 2011) (interpreting 15 U.S.C. § 1115), aff’d,
508 F. App’x 31 (2d Cir. 2013).
76

Applied Info Scis. Corp. v. eBAY, Inc., 511 F.3d 966, 971 (9th
Cir. 2007).
77

78

79

E. Remy Martin & Co., 756 F.2d at 1530.
Welding Servs.,Inc., 509 F.3d at 1361.
615 F.2s at 260.

72a
less likely that the consuming public would associate
the word “Domino” with the plaintiff when they
encountered it on other products. In this case, the
Defendant has presented evidence that four other
online apparel retailers use the Plaintiff’s marks on
apparel goods without a license.
The proffered
evidence of third party use falls short of constituting
the kind of “extensive third-party use” that typically
justifies limiting the protection extended to an
otherwise strong mark, and does little to diminish the
80
presumptive strength of the Plaintiff’s marks. The
Court concludes that this factor weighs strongly in the
Plaintiff’s favor.
2. Similarity between the infringed and
infringing marks
“In evaluating the similarity of marks, [the court]
must consider the overall impression created by the
marks, including a comparison of the appearance, sound
and meaning of the marks, as well as the manner in

80

The extent of use of a mark, which measures the duration of the
mark’s use and the amount of advertising conducted under the
mark, is another factor that the Court may consider in determining
the mark’s strength. See Trilink Saw Chain, LLC, 583 F. Supp. 2d
at 1313.
Although the Plaintiff repeatedly emphasizes its
worldwide renown in the educational sphere, the substantive
evidence regarding the extent of use of its marks has not been
well-presented to the Court on summary judgment. The Plaintiff
has attempted to introduce evidence of its advertising efforts that,
in the Court’s view, is not properly before the Court. The Court
emphasizes, however, that even if this evidence were properly
before the Court, it would not alter the Court’s ultimate conclusion
on the likelihood of confusion question.

73a
81

which they are displayed.” Evidence in the record
indicates that the Defendant has branded its apparel
goods with words that are identical to the Plaintiff’s
text marks “Savannah College of Art and Design” and
82
“SCAD.”
While the Plaintiff concedes that the
Defendant has not used the bee design logo in its
entirety, it has submitted uncontroverted evidence that
the Defendant has used the bee portion of the logo in
83
conjunction with the Plaintiff’s text marks.
This
84
factor weighs in the Plaintiff’s favor.
3. Similarity of the goods or services
The parties agree that the Plaintiff’s educational
services and the Defendant’s apparel goods are not the
85
same. The Defendant views this fact as dispositive
because, according to the Defendant, it demonstrates
that the “goods and services are neither competitive
86
nor related.” As the Court has already explained and
81

82

E. Remy Martin & Co., S.A., 756 F.2d at 1531.
Def.’s Statement of Material Facts ¶¶ 53-54.

83

See Pl.’s Statement of Material Facts ¶ 27 [Doc. 40-2]; Def.’s
Resp. to Pl.’s Statement of Material Facts ¶ 27 [Doc. 47-3].
84

Confusingly, the Defendant argues that the marks are not
similar because the Defendant did not use the Plaintiff’s marks as
trademarks. Def.’s Resp. to Pl.’s Mot. for Summ. J., at 11-12. The
Court has already discussed this argument in the context of the
Defendant’s functionality defense, supra. How the Defendant
intended to use the marks is not relevant to the question of
whether the marks would appear similar to the consuming public.
85

86

Pl.’s Br. in Supp. of Mot. for Summ. J., at 19 [Doc. 40-1].
Def.’s Resp. to Pl.’s Mot. for Summ. J., at 13 [Doc. 47].

74a
as the precedent cited by the Defendant holds,
relatedness is determined only after consideration of all
87
of the likelihood of confusion factors.
Goods and
services can be related even if they are not similar in
kind. Moreover, it is not necessary to establish that the
goods or services are competitive in order to prevail in
an infringement action. The Court will not engage in
protracted analysis of this factor. While it does not
weigh in the Plaintiff’s favor, the Court views the other
factors to be of greater significance.
4. Similarity of actual sales methods
“The fourth factor takes into consideration where,
88
how, and to whom the parties’ products are sold.” Put
differently, this factor asks whether the parties’
89
customer bases overlap. The Plaintiff asserts that the
parties’ “customers and methods of reaching them
entirely overlap—people interested in apparel bearing
90
[the Plaintiff’s] marks.”
The Defendant does not
appear to contest this claim, instead focusing on two

87

The Defendant cites Tally-Ho for the proposition that “[r]elated
goods are those that a consumer is likely to believe come from the
same source and are somehow connected with a common
company.” 889 F.2d at 1027. But the very next sentence of the
opinion establishes that “ ‘[r]elated use’ is merely a facet of the
likelihood of confusion test and therefore requires an inquiry into
seven factors affecting the likelihood of confusion among
consumers[.]” Id.
88

89

90

Fla. Int’l Univ. Bd. of Trustees, 830 F.3d at 1261.
See Trilink Saw Chain, LLC, 583 F. Supp. 2d at 1316.
Pl.’s Br. in Supp. of Mot. for Summ. J., at 20.

75a
arguments regarding its sales methods that it views as
“fatal” to the Plaintiff’s claim.
First, the Defendant notes that customers visiting
its site choose the color, text, and physical article of
clothing that are ultimately combined into the product
shipped to the customer. The Defendant argues that
customers cannot be confused because “[t]here is
simply no way a customer would believe a shirt’s
‘origin’ somehow changes” when the customer cycles
91
through different color and text options.
The
Defendant’s argument appears to be premised on the
mistaken belief that the only confusion actionable under
trademark law is confusion as to the physical origin of
the goods or services at issue. That is not the caseconsumers can instead be confused as to whether the
Plaintiff endorsed, sponsored, licensed, or otherwise
92
approved of the use of its marks on apparel. Whether
the product exists prior to the consumer’s order or is
manufactured after the fact is not particularly relevant
to the likelihood of confusion analysis.
Second, the Defendant argues that no confusion can
arise because the Defendant posts disclaimers on its
website stating that “[t]his store is not sponsored or
93
endorsed by Savannah College of Art and Design.”
The Defendant contends that these disclaimers are
prominently displayed and therefore confusion on the
part of consumers is near-impossible. In response, the
Plaintiff cites Boston Hockey. In Boston Hockey, the
91

92

93

Def.’s Resp. in Opp. to Pl.’s Mot. for Summ. J., at 14 [Doc. 47].
Burger King Corp., 710 F.2d at 1491-92.
Def.’s Resp. in Opp. to Pl.’s Mot. for Summ. J., at 14.

76a
lower court found that the sale of replica patches
bearing the plaintiff hockey teams’ marks was likely to
cause confusion, but determined that the defendant
could continue to sell the patches if the defendant
attached a disclaimer indicating that the replicas were
94
unauthorized. The Boston Hockey panel rejected this
approach on appeal, holding that “[o]nly a prohibition of
the unauthorized use will sufficiently remedy the
wrong” caused by “[t]he exact duplication of the
95
symbol.”
While this section of the Boston Hockey
opinion lends powerful support to the Plaintiff’s
position, the Court concludes that it is no longer good
law. The panel’s decision regarding the proposed
disclaimers flowed from its conclusion that “exact
duplication” necessarily results in confusion because
the public will “identify” the marks as belonging to the
mark owner. Because consumers would continue to
identify the replica patches with the hockey teams
regardless of whether a disclaimer was attached, it
followed that such disclaimers could not remedy the
harm. But, as the Eleventh Circuit explained on appeal
in this case, the Boston Hockey panel’s approach to the
likelihood of confusion analysis was incorrect. The
Plaintiff cannot prevail merely by showing that
consumers are aware that the Defendant’s apparel
bears marks belonging to the Plaintiff. The Plaintiff
must also show that the consumers are thereby likely
to be confused as to whether the use is authorized,
which is not a showing that the Boston Hockey panel
required the plaintiff hockey teams to make. The
94

95

Bos. Prof’l Hockey Ass;n, Inc., 510 F.2 at 1013.
Id.

77a
presence of disclaimers on the Defendant’s website is
therefore relevant to the likelihood of confusion
inquiry. This factor weighs weakly in favor of the
Defendant.
5. Similarity of advertising media
There is little in the record with which the Court
can assess the similarity of the parties’ advertising
methods. It appears that both parties advertise their
respective goods and services online. But, as the
Defendant points out, “[t]hat the goods or services of
the parties are both found on the Internet proves little,
if anything, about the likelihood that consumers will
96
confuse similar marks used on such goods or services.”
The Court concludes that this factor is neutral.
6. Defendant’s intent
“If it can be shown that a defendant adopted a
plaintiff’s mark with the intention of deriving a benefit
from the plaintiff’s business reputation, this fact alone
may be enough to justify the inference that there is
97
confusing similarity.” There is no question in this case
that the Defendant intended to copy the Plaintiff’s text
marks. The Defendant insists that “intent to copy” is
98
not the same as “intent to confuse.”
But in the
Eleventh Circuit, evidence of a Defendant’s intent to
96

4 McCarthy on Trademarks and Unfair Competition § 24:53.50
(5th ed.).
97

Frehling Enterprises, Inc., 192 F.3d at 1340 (citing John H.
Harland Co. v. Clarke Checks, Inc., 711 F.2d 966, 977 (11th Cir.
1983)).
98

Def.’s Resp. to Pl.’s Mot. for Summ. J., at 16-17.

78a
copy is relevant to the question of whether the
Defendant intended to confuse the consuming public.
Indeed, the Eleventh Circuit has held that an “[i]ntent
to copy in itself creates a rebuttable presumption of
99
likelihood of confusion.” The Plaintiff has not argued
for the application of the presumption in this case, but
the Court nevertheless concludes that this factor favors
the Plaintiff.
7. Actual confusion
The Plaintiff admits that it does not have evidence
showing that consumers have bought apparel from the
Defendant under the mistaken belief that the apparel
was licensed by the Plaintiff. The only evidence of
actual confusion offered by the Plaintiff is an incident in
which the parent of a student-athlete forwarded a link
to the Defendant’s website to the Plaintiff’s employees
and the employees were unsure whether the
100
Defendant’s use was authorized.
This evidence is
wholly insufficient to support a finding of actual
confusion. “Although evidence of actual confusion is
not necessary to a finding of likelihood of confusion, it is
nevertheless the best evidence of likelihood of
101
confusion.”
This factor weighs in favor of the
Defendant.
After careful consideration of the seven likelihood of
confusion factors, the Court concludes that the strength
of the mark, the similarity of the marks, and the
99

Babbit Elecs., Inc., 38 F.3d at 1179 (quoting Bauer Lamp Co.,
Inc. v. Shaffer, 941 F.2d 1165, 1172 (11th Cir. 1991)).
100
101

Pl.’s Br. in Supp. of Mot. for Summ. J., at 23.

Amstar Corp., 615 F.2d at 263.

79a
Defendant’s intent all weigh heavily in favor of the
Plaintiff on the likelihood of confusion. These factors
greatly outweigh the lack of any evidence of actual
confusion and questions surrounding the efficacy of the
Defendant’s disclaimers. The Plaintiff’s motion for
summary judgment should be granted.
IV. Conclusion
For the reasons stated above, the Defendant’s
Motion for Summary Judgment [Doc. 39] is GRANTED
in part and DENIED in part and the Plaintiff’s Motion
for Summary Judgment [Doc. 40] is GRANTED. The
Defendant’s Motion to Strike Improper Evidence [Doc.
50] is GRANTED.
SO ORDERED, this 1 day of March, 2019.

80a
Appendix D
United States District Court,
N.D. Georgia,
Atlanta Division.
SAVANNAH COLLEGE OF ART
AND DESIGN, INC.,
Plaintiff,
v.
SPORTSWEAR, INC. doing business
as PrepSportswear,
Defendant.
Civil Action File No. 1:14–CV–2288–TWT.
Filed Aug. 3, 2015.
OPINION AND ORDER
THOMAS W. THRASH, JR., District Judge.
This is a trademark infringement case. It is before
the Court on the Defendant’s Motion for Summary
Judgment [Doc. 39], the Plaintiff’s Motion for Summary
Judgment [Doc. 40], and the Defendant’s Motion to
Strike Improper Evidence [Doc. 50]. For the reasons
stated below, the Defendant’s Motion for Summary
Judgment is GRANTED and the Plaintiff’s Motion for
Summary Judgment is DENIED. The Defendant’s
Motion to Strike Improper Evidence is GRANTED in
part and DENIED as moot in part.

81a
I. Background
The Plaintiff, Savannah College of Art and Design,
Inc., was founded in 1978 as a private, non-profit
1
college. The Plaintiff now has campuses in Savannah,
2
Atlanta, Hong Kong, and Lacoste, France. The
3
Plaintiff’s business is providing educational services.
The Plaintiff owns several service mark registrations:
4
Registration No. 3,751,493 for a circular bee design,
5
Registration No. 3,118,809 for a circular shield design,
6
Registration No. 2,686,644 for the text mark “SCAD,”
and Registration No. 2,918,888 for the text mark
7
“Savannah College of Art and Design.” All of the
registrations were issued in connection with the
8
provision of educational services. None of the marks
are registered for use in connection with the sale of
9
clothing or headwear. Additionally, the Plaintiff has no
evidence of when any of the marks were first used in
10
connection with the sale of apparel or related goods.
1

2

3

4

5

6

7

8

9

Def.’s Statement of Facts ¶ 1.
Id.
Id. ¶ 2.
Id. ¶ 4.
Id. ¶ 8.
Id. ¶ 14.
Id. ¶ 17.
Id. ¶¶ 5, 9, 15, 18.
Id. ¶¶ 6, 10, 16, 19.

10

Id. ¶ 24.

82a
The Plaintiff did enter into a license agreement with
Follett in June of 2011, which allowed Follett to provide
11
licensed apparel at the campus bookstores.
The Defendant, Prep Sportswear, is an internetbased business incorporated under Washington law in
12
2005. The Defendant sells customizable apparel and
fan clothing for a variety of organizations, including
13
high school and college sports teams. In August of
2009, the Defendant began selling goods bearing the
words “Savannah College of Art and Design” and
14
“SCAD.”
The Plaintiff alleges that the Defendant
infringed its trademarks under both the Lanham Act
and Georgia law. Both parties now move for summary
judgment.
II. Legal Standard
Summary judgment is appropriate only when the
pleadings, depositions, and affidavits submitted by the
parties show no genuine issue of material fact exists
and that the movant is entitled to judgment as a matter
15
of law. The court should view the evidence and any
inferences that may be drawn in the light most
16
favorable to the nonmovant.
The party seeking
11

12

13

14

15

16

Id. ¶¶ 27-30.
Id. ¶ 44.
Id. ¶ 45.
Id. ¶¶ 53-54.
Fed. R. CIV. P. 56(a)

Adickes v. S.H. Kress & Co., 398 U.S. 144, 158-59, 90 S. Ct. 1598,
26 L.Ed.2d 142 (1970).

83a
summary judgment must first identify grounds to show
17
the absence of a genuine issue of material fact. The
burden then shifts to the nonmovant, who must go
beyond the pleadings and present affirmative evidence
to show that a genuine issue of material fact does
18
exist. “A mere ‘scintilla’ of evidence supporting the
opposing party’s position will not suffice; there must be
a sufficient showing that the jury could reasonably find
19
for that party.”
III. Discussion
Both the Plaintiff and the Defendant move for
summary judgment on the Plaintiff’s claims under the
Lanham Act and Georgia law. In the Eleventh Circuit,
“the use of another’s unregistered, i.e., common law,
trademark can constitute a violation of [section 43(a) of
20
the Lanham Act].” To establish a violation, a plaintiff
must show that it had enforceable rights in the mark
and “that the defendant made unauthorized use of it
21
such that consumers were likely to confuse the two.”
It is well established in trademark law “that a mark can
identify and distinguish only a single commercial

17

Celotex Corp. v. Catrett, 477 U.S. 317, 323-24, 106 S. Ct. 2548, 91
L.Ed.2d 265 (1986).
18

Anderson v. Liberty Lobby, Inc., 477 U.S. 242, 257, 106 S. Ct.
2505, 91 L.Ed.2d 202 (1986).
19

Walker v. Darby, 911 F.2d 1573, 1577 (11th Cir. 1990).

20

Crystal Entertainment & Filmworks, Inc. v. Jurado, 643 F.3d
1313, 1320 (11th Cir.2011)
21

Id.

84a
22

source.”
“Common-law trademark rights are
appropriated only through actual prior use in
23
commerce.”
Additionally, registration of a mark is
prima facie evidence “of the registrant’s exclusive right
to use the registered mark in commerce or in
connection with the goods or services specified in the
24
registration.”
That presumption, however, only
applies to the goods or services specified in the
25
registration, not to all goods and services.
Here, the parties agree that the Plaintiff has valid
registrations for the four marks at issue. Those
registrations are for use of the marks in connection
with educational services. The Plaintiff admits that it
does not have registrations for the marks related to
apparel. Instead, the Plaintiff argues that it needs no
such registrations. That is not the case. Because the
Plaintiff does not have registered marks for apparel, it
must show that it used the marks in commerce prior to
26
the Defendant’s use. The Plaintiff has not presented
that evidence. In fact, the deposition of Hannah
Flowers demonstrated that there are no records of
27
when the Plaintiff first used its marks on apparel. The

22

23

24

Id.
Id. at 1321.
15 U.S.C. § 1115(a).

25

Gameologist Grp., LLC v. Scientific Games Int’l, Inc., 838
F.Supp.2d 141, 153 (S.D.N.Y.2011).
26

27

Crystal Entertainment, 643 F.3d at 1321.
Flowers Dep. At 16.

85a
Plaintiff also initially admitted that it did not have any
28
evidence of when the marks were first used.
In its reply in support of its motion for summary
judgment, the Plaintiff attempted to introduce a
website indicating prior use of the marks on apparel.
The Defendant moved to strike that evidence, along
with two other pieces of evidence cited in the Plaintiff’s
reply brief. The Court considers the motion to strike as
a motion to exclude, given that motions to strike are
not the proper method for challenging the admissibility
29
of evidence on summary judgment. For two reasons,
the motion to exclude the website should be granted.
First, the evidence and argument were raised for the
first time in a reply brief. Arguments raised for the
first time in a reply brief may not be considered by the
30
Court. Second, even if this Court could consider an
argument raised for the first time in a reply brief, it
would not consider the evidence here. Both in a
30(b)(6) deposition and in its response to the
Defendant’s Statement of Facts, the Plaintiff stated
that it had no evidence of when the marks at issue were
first used on apparel. Under the principle of estoppel,
therefore, this Court will not permit the Plaintiff to
introduce evidence to contradict its earlier admissions.
The Defendant’s motion to exclude the evidence on
page 2, footnote 1, of the Plaintiff’s Reply in Support of
its Motion for Summary Judgment should therefore be
granted. The remainder of the motion to exclude
28

29

30

Pl.’s Resp. to Def.’s Statement of Facts ¶ 24.
Fed.R.Civ.P. 56(c)(2); Id. advisory committee’s note of 2010.
United States v. Oakley, 744 F.2d 1553, 1556 (11th Cir.1984).

86a
addresses evidence the Court does not need to consider
in ruling on the motions for summary judgment and
should be denied as moot.
Because the Plaintiff fails to present admissible
evidence showing that it has enforceable rights in a
mark related to apparel, the Defendant’s motion for
summary judgment on the Plaintiff’s Lanham Act
claims should be granted and the Plaintiff’s motion for
summary judgment should be denied. The analysis
under the Georgia Uniform Deceptive Trade Practices
Act (“GUDTPA”) is “co-extensive” with the analysis
31
under the Lanham Act. The Defendant’s motion for
summary judgment on the Plaintiff’s claim under the
GUDTPA should also be granted. The Plaintiff’s
motion should be denied.
IV. Conclusion
For the reasons stated above, the Defendant’s
Motion for Summary Judgment [Doc. 39] is
GRANTED. The Plaintiff’s Motion for Summary
Judgment [Doc. 40] is DENIED. The Defendant’s
Motion to Strike Improper Evidence [Doc. 50] is
GRANTED in part and DENIED as moot in part.
SO ORDERED, this 31 day of July, 2015.

31

Optimum Techs., Inc. v. Henkel Consumer Adhesives, Inc., 496
F.3d 1231, 1248 n. 11 (11th Cir.2007).

87a
Appendix E
UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF GEORGIA
ATLANTA DIVISION
THE SAVANNAH COLLEGE
OF ART AND DESIGN, INC.,
Plaintiff,
v.

Case No.
1:14-cv-02288-TWT

SPORTSWEAR, INC. d/b/a
PrepSportswear,
Defendant.
______________________________
JUDGMENT AND PERMANENT INJUNCTION
This action having come before the Court,
Honorable Thomas W. Thrash, United States Chief
District Judge, on remand from the Eleventh Circuit
Court of Appeals for the limited purpose of the Court
clarifying its March 6, 2019 Judgment (ECF No. 87) in
which the GRANTED IN PART AND DENIED IN
PART the Defendant’s Motion for Summary Judgment,
GRANTED the Defendant’s Motion to Strike Improper
Evidence, and GRANTED the Plaintiff’s Motion for
Summary Judgment, it is hereby ORDERED AND
ADJUDGED that:

88a
1.
The Court’s March 6, 2019 Judgment (ECF No.
87) in this action is vacated in favor of this Judgment
and Permanent Injunction, which shall be effective as
of March 6, 2019. The Court’s Opinion and Order dated
March 1, 2019 (ECF No. 86) remains in effect.
2.
Plaintiff has been granted summary judgment
on its First, Second, and Fourth claims as to
infringement of three of the asserted SCAD marks (as
reflected in Registration No. 3,751,493 for a circular bee
design, Registration No. 2,686,644 for the text mark
“SCAD,” and Registration No. 2,918,888 for the text
mark “Savannah College of Art and Design”)
(collectively, the “SCAD Marks”).
3.
Plaintiff has suffered harm as a result of
Defendant’s conduct and will continue to suffer harm if
the Defendant’s conduct is not enjoined. On review and
consideration of all relevant factors, the Court finds
that Plaintiff is entitled to permanent injunctive relief
on its First, Second, and Fourth claims for relief. Final
judgment is hereby entered against Defendant and in
favor of Plaintiff.
4.
Defendant, its Owner(s) (defined below), and any
successors or assigns of all or substantially all of
Defendant’s assets shall be and hereby are
PERMANENTLY
ENJOINED
from
making,
marketing, offering for sale, reproducing, distributing,
selling, and otherwise exploiting any products bearing
the three SCAD Marks found previously to be
infringed, or otherwise using, printing, or displaying
these SCAD Marks, or directing any other company or
natural person to act on their behalf in a manner
contrary to this injunction. For purposes of this
permanent injunction, the term “Owner” is a company

89a
or natural person who owns at least fifty percent (50%)
or more of the voting shares of Defendant.
5.
The permanent injunction described in
Paragraph 4 extends to words and/or designs that
create a likelihood of confusion with the three SCAD
Marks.
6.
Defendant shall permanently disable and delete
any existing database entries that result in depictions
of products bearing the SCAD Marks, or words and/or
designs that would create a likelihood of confusion with
the three SCAD Marks, from its database of webpages
and from its website, www.prepsportswear.com, and
any other websites owned by Defendant or its
Owner(s) (collectively, the “Websites”).
7.
In the event any listings or webpages with
depictions of products bearing the SCAD Marks, or
words and/or designs that would create a likelihood of
confusion with the SCAD Marks, are inadvertently
enabled on any of the Defendant’s Websites through
some process beyond Defendant’s reasonable control
despite Defendant’s compliance with Paragraph 6,
Defendant shall disable and delete such listings and
webpages as soon as practicable, but in any event
within five (5) days, after Defendant becomes aware of
such listings and webpages. Defendant shall not fulfill
any orders for any products depicted after it has
become aware of such listings and webpages.
Defendant shall be deemed to be “aware” of such
listings and webpages if it receives written notice from
Plaintiff or if one of such listings and webpages
otherwise comes to the attention of one of Defendant’s
officers, directors, or high-level employees.

90a
8.
Defendant’s sale or shipment of any products
bearing the SCAD Marks, or any words and/or designs
that create a likelihood of confusion with the SCAD
Marks, within the continental United States without
Plaintiff’s prior written consent is and shall be deemed
a presumptive violation of this permanent injunction.
9.
The parties shall bear their own attorneys’ fees
and costs related to this action.
SO ORDERED this 7th day of December , 2020.
/s/ Thomas W. Thrash, Jr.
THOMAS W. THRASH, JR.
UNITED STATES DISTRICT JUDGE

91a
Appendix F
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
February 17, 2021
_______________
No. 19-11258-JJ
_______________
SAVANNAH COLLEGE OF ART
AND DESIGN, INC.,
Plaintiff – Appellee,
versus
SPORTSWEAR, INC.
d.b.a. PrepSportswear,
Defendant – Appellant.
_______________
Appeal from the United States District Court
For the Northern District of Georgia
_______________
ON PETITION(S) FOR REHEARING AND
PETITION(S) FOR REHEARING EN BANC

92a
BEFORE:
WILLIAM PRYOR, Chief Judge,
*
ROSENBAUM, Circuit Judge, and MOORE , District
Judge.
PER CURIAM:
The Petition for Rehearing En Banc is DENIED, no
judge in regular active service on the Court having
requested that the Court be polled on rehearing en
banc. (FRAP 35) The Petition for Panel Rehearing is
also denied. (FRAP 40)
ORD-46

*

Honorable K. Michael Moore, Chief United States District Judge
for the Southern District of Florida, sitting by designation.

93a
Appendix G
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
January 23, 2018
_______________
No. 15-13830-BB
_______________
SAVANNAH COLLEGE OF ART
AND DESIGN, INC.,
Plaintiff - Appellant,
versus
SPORTSWEAR, INC., d.b.a. PrepSportswear,
Defendant – Appellee.
_________________________________________________
Appeal from the United States District Court
For the Northern District of Georgia
_________________________________________________
BEFORE: MARTIN and JORDAN, Circuit Judges,
and COOGLER, District Judge.
PER CURIAM:
The petition(s) for panel rehearing filed by
SPORTSWEAR, INC. is DENIED.
ENTERED FOR THE COURT:
/ss/
UNITED STATES CIRCUIT JUDGE

94a
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
_______________
No. 15-13830-BB
_______________
SAVANNAH COLLEGE OF ART
AND DESIGN, INC.
Plaintiff - Appellant,
Versus
SPORTSWEAR INC., d.b.a. PrepSportswear,
Defendant – Appellee.
_________________________________________________
Appeal from the United States District Court
For the Northern District of Georgia
_________________________________________________
ON PETITION(S) FOR REHEARING AND
PETITION(S) FOR REHEARING ENBANC
BEFORE: MARTIN and JORDAN, Circuit Judges,
and COOGLER, District Judge.
PER CURIAM:
The petition(s) for Rehearing are DENIED and no
Judge in regular active service on the Court having
requested that he Court be polled on rehearing en banc
(Rule 35, Federal Rules of Appellate Procedure), the
Petition(s) for Rehearing En Banc are DENIED.

95a
ENTERED FOR THE COURT:
/ss/
UNITED STATES CIRCUIT JUDGE

96a
Appendix H
Section 33(a) of the Lanham Act, 15 U.S.C. §
1115(a), provides:
Any registration issued under the Act of March
3, 1881, or the Act of February 20, 1905, or of a
mark registered on the principal register
provided by this chapter and owned by a party
to an action shall be admissible in evidence and
shall be prima facie evidence of the validity of
the registered mark and of the registration of
the mark, of the registrant’s ownership of the
mark, and of the registrant’s exclusive right to
use the registered mark in commerce on or in
connection with the goods or services specified
in the registration subject to any conditions or
limitations stated therein, but shall not preclude
another person from proving any legal or
equitable defense or defect, including those set
forth in subsection (b), which might have been
asserted if such mark had not been registered.
Section 32(a) of the Lanham Act, 15 U.S.C. §
1114(a), provides in relevant part:
Any person who shall, without the consent of the
registrant—
(a) use in commerce any reproduction,
counterfeit, copy, or colorable imitation of a
registered mark in connection with the sale,
offering for sale, distribution, or advertising of
any goods or services on or in connection with

97a
which such use is likely to cause confusion, or to
cause mistake, or to deceive; or
(b) reproduce, counterfeit, copy, or colorably
imitate a registered mark and apply such
reproduction, counterfeit, copy, or colorable
imitation to labels, signs, prints, packages,
wrappers, receptacles or advertisements
intended to be used in commerce upon or in
connection with the sale, offering for sale,
distribution, or advertising of goods or services
on or in connection with which such use is likely
to cause confusion, or to cause mistake, or to
deceive,
shall be liable in a civil action by the registrant
for the remedies hereinafter provided.
Section 43(a)(1) of the Lanham Act, 15 U.S.C. §
1125(a)(1), provides:
(a) Civil action
(1) Any person who, on or in connection with any
goods or services, or any container for goods,
uses in commerce any word, term, name, symbol,
or device, or any combination thereof, or any
false designation of origin, false or misleading
description of fact, or false or misleading
representation of fact, which—
(A) is likely to cause confusion, or to cause
mistake, or to deceive as to the affiliation,
connection, or association of such person with
another person, or as to the origin, sponsorship,
or approval of his or her goods, services, or
commercial activities by another person, or

98a
(B) in commercial advertising or promotion,
misrepresents the nature, characteristics,
qualities, or geographic origin of his or her or
another person’s goods, services, or commercial
activities,
shall be liable in a civil action by any person who
believes that he or she is or is likely to be
damaged by such act.

